<html>
<title> - NASA: ISSUES AND CHALLENGES</title>
<body><pre>[Senate Hearing 109-1110]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1110
 
                      NASA: ISSUES AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
64-139                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                 KAY BAILEY HUTCHISON, Texas, Chairman
TED STEVENS, Alaska                  BILL NELSON, Florida, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               E. BENJAMIN NELSON, Nebraska
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 25, 2006...................................     1
Statement of Senator Allen.......................................    23
Statement of Senator Hutchison...................................     1
Statement of Senator Bill Nelson.................................     2
Statement of Senator Stevens.....................................    19
    Prepared statement...........................................    20

                               Witnesses

Griffin, Hon. Dr. Michael D., Administrator, NASA................     3
    Prepared statement...........................................     7

                                Appendix

Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to Hon. Dr. Michael D. Griffin.......................    37


                      NASA: ISSUES AND CHALLENGES

                              ----------                              


                        TUESDAY, APRIL 25, 2006

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Kay Bailey 
Hutchison, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Our meeting will come to order.
    This is the Science and Space Subcommittee hearing that we 
have called to hear the Administrator of NASA talk about the 
issues and challenges, and hopefully begin to focus on the NASA 
authorization bill that we passed.
    I am very pleased that so much has been accomplished since 
Dr. Griffin became Administrator. I'm especially pleased that 
your approach is largely that which Congress is supporting in 
the NASA authorization bill that was originated by this 
committee and enacted by Congress.
    The President's budget request for NASA is a 3.2 percent 
increase over the 2006 budget. However, of course, the total 
funding requested for NASA is $1.1 billion less for 2007 than 
the amount authorized by our legislation in Congress. We don't 
always get full authorization amounts, and I know we're going 
to hear from you today, Administrator Griffin, about how the 
money will be used.
    However, the authorization bill was very careful in 
accelerating the Crew Exploration Vehicle, but also ensuring 
sufficient funding to return the Space Shuttle to flight and 
complete the International Space Station. What is concerning to 
me is that the President's budget request is creating a 
situation in which the Vision for Exploration and the 
acceleration of the CEV could do away with many of the other 
priorities that I think we share. And I don't want that to 
happen.
    Beyond continuing to urge an expanded total funding level 
for NASA, I have also asked, in the authorization bill, that 
you seek ways to find funding from other sources. We certainly 
opened that opportunity by creating the International Space 
Station as a national lab, the U.S. part of it, and by asking 
you to work with the Department of Defense to see where we 
could share the aeronautics budget, instead of duplicating it. 
And I hope that we will be able to talk a little bit more about 
that.
    I am very, very hopeful that NASA will become a part of the 
President's Competitive Initiative that he announced in his 
State of the Union in January. While we are doubling the 
funding of the National Science Foundation for basic science 
research, I believe NASA has a role to play, because I think, 
with the International Space Station and the research 
capabilities that we have, that NASA's basic sciences should be 
part of that competitiveness initiative. And, therefore, I'm 
hoping that we can expand NASA's research partnerships to 
include the National Science Foundation.
    I think we all are in agreement--you, Administrator 
Griffin, and our Committee--that we have a challenge that must 
be met. America must stay in the forefront of space exploration 
and the science initiatives that can go with that. You have a 
very difficult job. We understand that and appreciate it. We're 
asking you to create the Crew Return Vehicle. We're asking you 
to complete the Space Station, and we're asking you to get the 
Shuttle up there to do it, despite the problems that we saw in 
the last Shuttle. And we're asking you to stick with the basic 
science research that is so important for our future 
competitiveness.
    So, I know it's a big job, and I hope that you have the 
tools to do it by adding other contributors and cooperating 
with other agencies so that everything doesn't have to come out 
of NASA's hide.
    So, I thank you for being here today and working with us. I 
certainly enjoyed being at the 25th anniversary of the first 
Shuttle with you, in Houston. It was a wonderful event. Senator 
Nelson, you would have loved it, too. And I think that it just 
showed how far we've come and how important it is that we stay 
the course.
    Thank you.
    And now, I would like to call on my Ranking Member, Senator 
Nelson, our Senate's only actual spaceflight semi-astronaut.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Mr. Nelson. Well, thank you, Madam Chairman.
    And, Dr. Griffin, welcome. It's really good to have someone 
of your stature as the leader of our country's space program. I 
am grateful for your public service, particularly at such a 
difficult time for NASA. It's good that someone is at the helm, 
leading, allocating dollars, making decisions, sometimes under 
severe time pressure. But the consequences of your decisions, 
and the consequences of our decisions in trying to assist you, 
are going to be enormous in how so much of America is going to 
be affected in the future. When I was a boy growing up in the 
shadow of the Cape, we knew all of the early astronauts' names. 
It, of course, was during the Cold War; and so, we had, 
clearly, a national mission in our competitiveness with the 
Soviet Union. But, by the decisions that were made, and by the 
leadership that was offered at that time--first, by a President 
who said, ``We're going to the moon and return, in 9 years,'' 
backed up with an Administrator of NASA, Jim Webb, who had a 
singular purpose, and that was to bring all the resources to 
bear. We did it. What was so remarkable was--not only the 
spinoffs, which we often forget, that came out of the space 
program. When you build something that is to be highly 
reliable, that is light in weight and small in volume, and the 
technological revolution in microminiaturization that came from 
that. It also had a phenomenal impact on the education system 
of this country. Suddenly kids were interested in going into 
math and science and engineering. And, of course, you know the 
statistics today, just from a quantity standpoint, of the 
greater number of engineers that are being produced in China 
and in India than in America. That worries me for the future 
not only for us to be globally competitive, but also to be the 
technological leader in this global competition.
    And so, I merely give you an additional charge, which is, 
in leading our space program, there's a lot more to what 
Senator Hutchison has so eloquently stated, the necessity of 
completing that International Space Station and keeping the gap 
between the CEV and the retirement of the Shuttle at a minimum, 
and protecting the workforce, a workforce that is very 
experienced, that you don't want to lose all that corporate 
memory. There's even a greater goal, and that is to reignite 
the imagination of the American people, and especially its 
young people, to want to be involved in technological matters, 
because that will carry us into continued leadership in the 
global competition.
    So, thank you, Madam Chairman, for this opportunity to make 
a statement.
    Senator Hutchison. Thank you.
    Administrator Griffin?

 STATEMENT OF HON. DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NASA

    Dr. Griffin. Thank you, Senator Hutchison, Senator Nelson, 
members of the Subcommittee, I appreciate your inviting me here 
to discuss NASA's Fiscal Year 2007 budget request and our 
progress in carrying out our mission of space exploration--let 
me interrupt to say thank you for--thank you for being here, 
sir--our progress in carrying out our mission in space 
exploration, scientific discovery in aeronautics research 
within the resources provided.
    NASA carries out this Nation's greatest technical 
challenges, and we cannot do it alone. We need the help of the 
Congress. So, let me begin by thanking this committee, and 
especially Senator Hutchison and Senator Nelson, for your 
leadership in shepherding through Congress the NASA 
Authorization Act of 2005. This was a landmark piece of 
legislation for NASA, and I am profoundly grateful to the 
Congress for the passage of this visionary Act.
    The national priorities articulated in the Authorization 
Act are a lasting legacy to the crew of the Space Shuttle 
Columbia and a testament to the leadership in both the White 
House and Congress who realized in the aftermath of the 
Columbia tragedy that while our national goals for space 
exploration must fulfill existing commitments to the 
International Space Station, we must also commit ourselves to 
new, bolder journeys to the Moon, Mars, and beyond. I have a 
copy of that Act hanging on the wall just outside my office at 
NASA. This endorsement by the Congress of the Vision for Space 
Exploration will help to sustain this long journey over the 
years and decades.
    But our wishes alone do not make this Act a reality. The 
NASA Authorization Act sets clear and achievable goals, but, I 
must be honest with you, these goals are difficult and not 
without risk. We have a lot of hard work before us, and we need 
the help of the Congress and of this committee to achieve them.
    For that reason, I ask for your specific help as we try to 
address each of the 50 or so reporting requirements also 
specified in the Act. You have my pledge to keep this committee 
fully informed. But the reports for which you have asked must 
be consistent with what we know technically at the time of the 
report, as well as the best cost estimates we have at that 
time. Further, NASA is in source selection on the Crew 
Exploration Vehicle (CEV), and we must maintain the integrity 
of that process with respect to the reports that we do provide.
    The other area where I need the help and understanding of 
this committee is in realizing how much has changed in the 
years following the Space Shuttle Columbia accident. Put 
simply, the Columbia accident in 2003 profoundly changed the 
course of our Nation's space program, and it profoundly 
impacted NASA's ability to carry out plans for the 
International Space Station (ISS), which preceded the accident. 
We still need to make sure that we can control foam shedding 
from the Space Shuttle's external tank. We still need to 
develop a robust space transportation capability to ferry 
astronauts and cargo to the Space Station and from there onward 
to our next milestones, the Moon, Mars, and near-Earth 
asteroids. For this reason, I need your support in bringing the 
Crew Exploration and Launch Vehicles online not later than 
2014, and possibly sooner.
    We also need your support for our effort to leverage the 
capabilities of commercial industry to demonstrate potentially 
cheaper means to deliver cargo, and, later, crew, to the 
International Space Station. After successful demonstrations, 
NASA hopes to established arms-length commercial transactions 
for delivery service to the ISS.
    While the primary emphasis of NASA's research on the Space 
Station is to prepare for future missions to the Moon, Mars, 
and beyond, NASA is conducting a certain amount of research, 
along with our government and commercial partners, for other 
scientific benefits. However, Senator Hutchison, as we've 
discussed with you and your staff, it can be difficult to 
divide research according to sharply defined exploration and 
non-exploration purposes. But, having said that, I've reviewed 
NASA's research plans, and I believe we're fully complying with 
the NASA Authorization Act's requirements as to the funding 
specified for non-exploration ISS research. We're also making 
plans to solicit additional partnerships with other government 
agencies and the commercial sector to conduct research onboard 
the Space Station.
    But, let me be clear, we can only realize the potential of 
the Space Station if we have a robust space transportation 
capability to ferry crew, experiments, and equipment to and 
from the Station. Our emphasis over the next 5 years should be 
to assemble the Station with the Shuttle while working 
aggressively to develop these new space transportation 
capabilities.
    While the NASA Authorization Act sets clear goals for the 
entire Agency, we simply can't afford to do everything that our 
many constituencies would like us to do. I am truly sorry that 
this is so, but it is a fact. We must strike a careful and 
appropriate balance of resources in NASA's budget consistent 
with the priorities specified. NASA carries out all of its 
missions--space exploration, science, and aeronautics 
research--with a go-as-you-can-afford-to-pay approach. NASA's 
topline request of $16.8 billion in Fiscal Year 2007 is roughly 
six-tenths of a percent of the overall Federal budget. By 
comparison, NASA's budget at the height of the Apollo program, 
including science and aeronautics research, represented 4.4 
percent of Federal outlays. In terms of workforce at the height 
of the Apollo program, NASA employed over 400,000 contractors, 
civil servants, scientists, technicians, and engineers. Today, 
NASA employs approximately 75,000 people on its various 
programs.
    I'm not trying to be nostalgic for the past in pointing out 
these facts; I'm trying to be realistic. NASA can't do 
everything on its plate, but we can be guided by, and we can 
implement, the key priorities specified by the Congress and the 
White House and as informed by the scientific community.
    For many reasons, friends of mine who worked for NASA or in 
industry during the Apollo era, and who helped bring the 
Shuttle online 25 years ago, have called the next decade for 
NASA the greatest technical and management challenge the Agency 
has faced. I believe they are right. Fulfilling our commitments 
with the International Space Station, retiring the Shuttle by 
2010, developing the Crew Exploration and Launch Vehicles to 
carry out missions to the Moon, Mars, and beyond, are goals as 
challenging as those NASA faced two generations ago.
    At the same time, we're also making plans for a Shuttle 
servicing mission to Hubble and building our Nation's next 
great observatory, the James Webb Space Telescope. We're 
conducting our stewardship of the Nation's Earth science 
research with satellites like the soon-to-be-launched Cloudsat 
and CALIPSO, which are currently on the pad at Vandenberg, and 
we're also building the next Mars robotic landers and 
laboratories. NASA's science program still remains one of our 
Nation's greatest achievements. But in view of our fiscal 
constraints, we must defer some missions that we would prefer 
to do now, but simply can't afford at this time. We will 
continue to maintain a robust portfolio of missions and 
research within the $5.33 billion budget requested for the 
Science Mission Directorate in Fiscal Year 2007.
    In aeronautics research, NASA is developing a national 
policy and a plan with the White House and other Federal 
agencies, including DOD and FAA, which dedicates us to the 
mastery and intellectual stewardship of the core competencies 
of aeronautics in all flight regimes. This plan will focus our 
research efforts on those areas appropriate to NASA's unique 
capabilities. We hope to provide this plan, which will inform 
future budget resource decisions to the Congress by December.
    Let me speak plainly to the Agency's greatest challenge, 
transitioning from the Space Shuttle to the Crew Exploration 
Vehicle. The most important strategic decision we made last 
year was to use a Shuttle-derived launch architecture. And I 
want to thank you for endorsing that approach in the 
Authorization Act. Next, we're addressing the workforce, launch 
infrastructure, contracting, and affordability issues in the 
weeks, months, and years ahead. We have a lot of work to do.
    To be clear, NASA will not need as many engineers and 
technicians on the shop floor to operate and maintain the CEV 
and Crew Launch Vehicles (CLV) as we do today with the Space 
Shuttle. The CEV and CLV are designed to be simpler and cheaper 
to operate than the Shuttle. For this reason, many of our 
highly specialized human spaceflight engineers and technicians 
will need to transition to projects such as commercial crew/
cargo transport services, heavy-lift launch vehicle 
development, and the Lunar Lander. Change is hard. But if we 
don't act now to bring it about, we will not develop the space 
program that we want to have.
    I recall firsthand the damage suffered by our Nation's 
space program by the unintended loss of critical expertise 
during the gap between Apollo and the Shuttle, between 1975 and 
1981. When major cutbacks occurred in NASA operations in the 
early 1970s, the area around Kennedy Space Center suffered 
greatly, with 13 percent unemployment, and over 1,000 
repossessed homes as former Apollo workers walked away from 
homes for which there was no one to buy. The expertise we lost 
in this era was never regained.
    We must not repeat these mistakes of the 1970s as we 
proceed to retire the Shuttle and transition to the Crew 
Exploration Vehicle. This must be a safe and orderly 
transition. We have our work cut out for us in flying the 
Shuttle until 2010 to complete the Space Station and to effect 
this transition. We will need the help of Congress during this 
critical time. You can expect to see more from us on our 
transition plans in the months and years ahead.
    This year, in addition to dealing with foam shedding from 
the external tank, the Space Shuttle program is also recovering 
from damage by Hurricane Katrina, to the Michoud Assembly 
Facility in Louisiana, and Stennis Space Center in Mississippi. 
I want to thank members of this committee for their support for 
NASA in these trying times. We're asking for Congress's help in 
the Administration's emergency supplemental request. We're 
asking the Congress to provide NASA with the flexibility--not 
new money in appropriations, but the flexibility to move up to 
$50 million to pay back the Space Shuttle and Space Station 
accounts, which were used to pay for Katrina recovery efforts 
last fall. As we make a more complete assessment of the 
recovery and repair costs from the hurricane, we will keep the 
Committee informed of our plans and how we would use this 
flexibility. I look forward to working with you to address that 
issue.
    In conclusion, Senator Hutchison, Senator Nelson, Senator 
Stevens, Members of the Committee, our Nation has a long 
journey ahead of us, just as was the case for explorers and 
scientists throughout history. I would like to leave you with 
the following thought before taking your questions. Imagine, if 
you will, a world of some future time, whether 2020, 2040, or 
whenever, when some other nations or alliances are capable of 
reaching and exploring the Moon or voyaging to Mars, and the 
United States cannot, and does not. Is it even conceivable 
that, in such a world, America would still be regarded as a 
leader among nations, never mind ``the leader''? And, if not, 
what might be the consequences of this for the global balance 
of economic and strategic power? Are we willing to accept those 
consequences?
    In the end, these are the considerations at stake when we 
decide, as Americans, upon the goals we set for, and the 
resources we allocate to, our civil space program. I believe 
that the NASA Authorization Act answers these questions with a 
balanced set of goals that America seeks from its space 
program. And now we must implement those goals.
    Thank you for you consideration and your leadership in 
helping to answer them.
    [The prepared statement of Dr. Griffin follows:]

 Prepared Statement of Hon. Dr. Michael D. Griffin, Administrator, NASA

    Madam Chair and Members of the Subcommittee, thank you for this 
opportunity to appear today to discuss NASA's plans as represented in 
the President's FY 2007 budget request for NASA. I will outline the 
highlights of our budget request and discuss the strategic direction 
for NASA in implementing the priorities of the President and Congress 
within the resources provided. The President's FY 2007 budget request 
for NASA of $16,792 million demonstrates his commitment to the Vision 
for Space Exploration and our Nation's commitment to our partners on 
the International Space Station. The FY 2007 budget request is a 3.2 
percent increase above NASA's FY 2006 appropriation, not including the 
$349.8 million emergency supplemental for NASA's recovery and 
restoration efforts following Hurricane Katrina. However, let me put 
NASA's budget into perspective. NASA's budget is roughly 0.7 percent of 
the overall Federal budget. This is a prudent investment to extend the 
frontiers of space exploration, scientific discovery, and aeronautics 
research. With it, we enhance American leadership, our safety and 
security, and our global economic competitiveness through the 
technological innovations stemming from our space and aeronautics 
research programs. Our Nation can afford this investment in NASA.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration to advance U.S. scientific, security, and 
economic interests through a robust space exploration program. NASA is 
grateful to the Congress for endorsing this Vision last December in the 
NASA Authorization Act of 2005 (Pub. L. 109-155) and providing guidance 
and expectations for us in carrying out the Agency's missions of space 
exploration, scientific discovery, and aeronautics research. NASA is 
also appreciative of the action by the Committees on Appropriations and 
Congress in providing regular FY 2006 appropriations for the Agency 
totaling $16,456.8 million--essentially the level of the President's FY 
2006 request before application of rescissions--including a strong 
endorsement for the Vision for Space Exploration, timely development of 
the Crew Exploration Vehicle (CEV) and Crew Launch Vehicle (CLV) and 
support for NASA's other core programs. To that end, NASA is 
implementing the priorities of the President and Congress within the 
resources available. NASA carries out its missions with a ``go as you 
can afford to pay'' approach where we assume NASA's top line budget 
will grow at the moderate rate laid out in the President's 2007 budget 
request. NASA's Strategic Plan and FY 2007 Congressional Budget 
Justification, provided to the Congress in February, reflect those 
priorities and describe how NASA is implementing those policies into 
practice by describing our programs, projected resources, and workforce 
needs.
    As part of his FY 2007 budget request to Congress, the President 
proposed the American Competitiveness Initiative, or ACI, to encourage 
American innovation and strengthen our Nation's ability to compete in 
the global economy. Many have asked why NASA is not a part of the ACI. 
My response is that it is the mission of NASA to pioneer the future of 
space exploration, scientific discovery, and aeronautics research, 
while the ACI is focused on bolstering the Nation's economic 
competitiveness in areas such as information technology and 
nanotechnology. NASA contributes to the Nation's competitiveness 
through all of the cutting-edge exploration, science, and aeronautics 
investments accomplished by our Mission Directorates. As part of the 
President's Vision for Space Exploration, NASA expects to spawn entire 
new industries in this Nation. Furthermore, NASA's education and 
training initiatives are designed to enhance math and science 
education, as well as to provide research opportunities at the 
university level. We are currently reviewing our portfolio of education 
programs to assess opportunities for potential collaboration at the 
invitation of the Department of Education, National Science Foundation, 
and other Federal agencies. NASA can offer opportunities and 
inspiration to students as no one else can. For example, a University 
of Colorado--Boulder student-built experiment on the New Horizons 
mission is currently being activated and will be operated by university 
students all the way to Pluto and beyond.
Implementing the Vision
    Later this year, NASA will continue the assembly of the 
International Space Station (ISS) with the minimum number of Space 
Shuttle flights necessary to fulfill our commitments to our 
international partners before the Space Shuttle's retirement in 2010. 
The commitment of resources in the President's budget has shown our 
international partners that NASA and the United States are good 
partners through thick and thin and this commitment will encourage them 
to team with us in future endeavors of space exploration and scientific 
discovery. NASA has consulted with our international partners on the 
configuration of the ISS, and is working closely with them to determine 
the crew size and logistics necessary during this assembly period as 
well as the period following the retirement of the Space Shuttle. The 
heads of space agencies from Canada, Europe, Japan, Russia and the 
United States met at Kennedy Space Center on March 2, 2006, to review 
ISS cooperation and endorse a revision to the ISS configuration and 
assembly sequence. The partners reaffirmed their agencies' commitment 
to meet their mutual obligations, to implement six person crew 
operations in 2009, and to conduct an adequate number of Space Shuttle 
flights to complete the assembly of ISS by the end of the decade. The 
partners also affirmed their plans to use a combination of 
transportation systems provided by Europe, Japan, Russia, and the 
United States in order to complete ISS assembly in a timeframe that 
meets the needs of the partners and to ensure full utilization of the 
unique capabilities of the ISS throughout its lifetime. The FY 2007 
budget request provides the necessary resources to purchase Soyuz crew 
transport and rescue for U.S. astronauts as well as needed Progress 
vehicle logistics support for the ISS from the Russian Federal Space 
Agency. Likewise, the FY 2007 budget request provides necessary funds 
for U.S. commercial industry to demonstrate the capability to deliver 
cargo and/or crew to the ISS. If such cost-effective commercial 
services are successfully demonstrated, NASA will welcome and use them.
    The next return to flight test mission, STS-121 commanded by 
Colonel Steve Lindsey, will confirm that we can safely return the Space 
Shuttle to its primary task of assembling the ISS. We have continued to 
reduce the risk associated with the release of foam debris from the 
external tank by eliminating the liquid hydrogen and the liquid oxygen 
protuberance air load ramps. We are now working toward a July launch, 
which is the next available lighted launch window as mandated for STS-
121. The window is open from July 1 through July 19. NASA will launch 
when ready. Pending the results of this test flight, I plan to convene 
my senior management team for space operations as well as my Chief 
Safety and Mission Assurance Officer and my Chief Engineer in order to 
determine whether the Space Shuttle can safely conduct a fifth 
servicing mission to the Hubble Space Telescope in 2007-2008. NASA's FY 
2007 budget provides the necessary resources to conduct this mission.
    In previous budget requests, NASA reported only placeholder budget 
estimates for the Space Shuttle for FY 2008-2010. The Agency's 
management focus on return to flight efforts of the Space Shuttle 
resulted in NASA deferring this analysis until the FY 2007 budget. As I 
testified before Congress last year, NASA's estimates of the budget 
shortfall required to safely fly out the Space Shuttle with the minimum 
number of flights necessary to complete ISS assembly and meet our 
international partner commitments were $3-5 billion. With the FY 2007 
budget runout, NASA has added $2.4 billion to the Space Shuttle program 
and almost $1.5 billion to the International Space Station in FY 2008-
2010 compared to the FY 2006 budget runout. There is no ``new money'' 
for NASA's top line budget within the budget projections available 
given our Nation's other pressing issues, so, working with the White 
House, NASA provided sufficient funds for the Space Shuttle and ISS 
programs to carry out their missions by redirecting funds from the 
Science and Exploration budgets.
    There are several strategic implications behind this decision. 
Foremost among them is that our Nation will keep its commitment to our 
international partners on the ISS. Thus, with limited resources, we 
made some difficult decisions. Leadership means setting priorities of 
time, energy, and resources, and I have tried to make these decisions 
with the best available facts and analysis. The plain fact is that NASA 
simply cannot afford to do everything that our many constituencies 
would like the Agency to do. We must set priorities, and we must adjust 
our spending to match those priorities. NASA needed to reallocate 
budgeted funds from the Science and Exploration budget projections for 
FY 2007-2011 in order to ensure that enough funds were available to 
properly support the Space Shuttle and the ISS. Thus, NASA cannot 
afford the costs of starting some new science missions at this time. It 
is important to know that NASA is simply delaying missions, not 
abandoning them. With the limited resources available, I believe that 
fulfilling our commitments on the International Space Station and 
bringing the Crew Exploration Vehicle (CEV) online in a timely manner, 
not later than 2014 and possibly much sooner, is a higher priority than 
these science missions during this period.
    There are several reasons not to delay the CEV farther. First and 
foremost is increased risk to the Vision due to an extended gap in our 
Nation's ability to launch humans into space after we retire the Space 
Shuttle in 2010. I experienced first-hand the stagnancy in the 
aerospace industry that existed during the gap in human spaceflight 
between the end of the Apollo program and the first flight of the Space 
Shuttle in 1981, and I know that our Nation's space program suffered 
greatly from the unintended loss of critical expertise. Our Nation's 
space industrial base withered. A longer gap in U.S. human spaceflight 
capabilities will increase risk and overall costs and lead to even more 
delays in pursuing the Nation's vision. Equally important, the U.S. may 
risk a perceived, if not a real loss of leadership in space 
exploration, if we are unable for an extended period to launch our 
astronauts into space when other nations are establishing or building 
on their own abilities to do so. An extended gap in U.S. human 
spaceflight capabilities also increases our risk posture to adequately 
maintain and utilize the ISS and, unless a commercial capability arises 
to transport our astronauts, NASA would continue to be reliant on the 
Russian Soyuz.
    Thus, further delays in the CEV are strategically more damaging to 
our Nation's space program than delays to these other science missions. 
I stand by my decision regarding how to implement the priorities of the 
President and Congress within the resources provided, and I will work 
closely with our stakeholders in Congress and the scientific community 
to make sure they understand my rationale. Some of our stakeholders 
will not agree with my position, but it is important for everyone to 
understand the rationale. These are difficult decisions, but we must 
balance the competing priorities for our Nation's civil space and 
aeronautics research endeavors with the limited resources available.
    If the funds budgeted for Exploration Systems were to be used to 
provide additional funds for Science missions, additional Aeronautics 
Research, or other Congressionally-directed items, I must advise the 
Congress that such redirection of already-budgeted funds will directly 
impact NASA's ability to effectively and efficiently transition the 
workforce and capabilities from the Space Shuttle to the new CEV 
systems. Funds available to carry out this transition are already lean, 
with little management reserve or margin for error. This transition 
from the Space Shuttle to the CEV is NASA's greatest management 
challenge over the next several years, and we will need everyone's help 
within NASA, industry, and our stakeholders to make the transition 
successful.
    Beyond fulfilling our existing commitment, NASA's FY 2007 budget 
provides the necessary resources to carry out the next steps of the 
Vision for Space Exploration. The FY 2007 budget provides $3,978 
million for Exploration Systems. Last summer, NASA defined the 
architecture for the exploration systems that will be necessary in 
carrying forth that Vision, and we notified the Congress of NASA's need 
to curtail several research and technology activities not directly 
contributing to the near-term priorities of timely development of the 
CEV and Crew Launch Vehicle (CLV) based on the results of that 
exploration architecture study and the limited funds available. I want 
to thank the Congress for its endorsement of the general architecture 
plans in the NASA Authorization Act of 2005 (Pub. L. 109-155) as well 
as the FY 2006 Appropriations Act for NASA (Pub. L. 109-108).
    The FY 2007 budget request is sufficient to bring the CEV online no 
later than 2014, and potentially much sooner. Given the analysis I have 
today and the need to balance budgets with proposed development work 
for the CEV and launch vehicles along with the cost estimates for that 
work, I cannot be more specific for our stakeholders in the White House 
and Congress at this time about the specific point between 2010 and 
2014 when NASA will be able to bring the CEV online. NASA requested 
industry proposals for the CEV, and we have considerable incentives for 
an industry bidder to propose a planned development for the CEV as 
close to 2010 as possible. NASA has begun to evaluate those industry 
proposals, with a planned contract award in late Summer/early Fall 
2006. NASA plans to select one industry contractor team for the design 
and development of the CEV. Concurrently, NASA will refine its 
independent cost estimates for the CEV and launch systems as well as 
find cost savings through workforce synergies and contract efficiencies 
between the Space Shuttle and CEV launch systems within the budget 
profile projected in FY 2007. We believe we can find synergies and 
contract efficiencies by sharing or transferring subsystems, personnel, 
resources, and infrastructure between the Space Shuttle propulsion 
elements and the CEV, CLV, and Heavy-Lift Launch Vehicle. I believe 
that with the FY 2007 budget, NASA and industry have a real opportunity 
to make the CEV operational sooner than 2014. I should be able to 
report a more definitive date for bringing the CEV online by the time 
we award the CEV contract. Until then, NASA is in the midst of source 
selection for the CEV procurement, and we are limited in our ability to 
provide information in this competitive environment involving a multi-
billion dollar procurement.
    For the CLV, NASA has directed two industry teams to begin initial 
development of the vehicle's propulsion systems, and to develop designs 
for the CLV upper stage. The Agency also plans to award design, 
development, test, and evaluation contracts later this year. NASA is 
planning a systems requirements review for this project in the fall 
with a preliminary design review in 2008 in order for this new launch 
vehicle to be ready for when the CEV comes on-line.
    While NASA needed to significantly curtail projected funding for 
biological and physical sciences research on the ISS as well as various 
research and technology projects in order to fund development for the 
CEV, the U.S. segment of the ISS was designated a National Laboratory 
in the NASA Authorization Act of 2005. Thus, NASA is seeking 
partnerships with other government agencies like the National Science 
Foundation, Department of Defense, National Institutes of Health (NIH), 
Department of Energy, and the National Institute of Standards and 
Technology as well as the commercial sector to conduct research onboard 
the ISS. However, the research utilization of the ISS is impacted due 
to limited cargo and crew transportation. For this reason, NASA's need 
for investment to spur a commercial cargo and/or crew transportation 
service is even more compelling.
    With respect to funding for non-exploration related life and 
microgravity research pursuant to direction in Section 204 of the NASA 
Authorization Act of 2005, the Agency completed an extensive exercise 
to define exactly what activities should be categorized as ISS 
research. I have reviewed NASA's investments in non-Exploration related 
life and microgravity research, and I believe that NASA is complying 
with the NASA Authorization Act of 2005. Consistent with Section 204 of 
the Act, of the $238.1 million allocated to ISS Research in FY 2006, 
$35.7 million (or 15 percent) will be dedicated to non-exploration 
research.
Scientific Discovery
    In 2005, NASA's science missions enjoyed a year of significant 
achievements. Deep Impact traveled 268 million miles to meet comet 
Tempel 1, sending its impactor to collide with the comet and providing 
researchers with the best-ever comet data and images. The Mars twin 
rovers continue studying the harsh Martian environment, well beyond 
their expected mission life. Cassini may have found evidence of liquid 
water erupting from below the surface of Saturn's moon Enceladus. The 
Mars Reconnaissance Orbiter successfully launched and went into orbit 
around Mars, to help us better understand the history of water on Mars. 
The Voyager 1 spacecraft entered the vast, turbulent expanse of the 
heliosheath, 8.7 billion miles from the sun, where no human-made object 
has traveled before. The Hubble Space Telescope continues its 
successful mission of discovery and exploration. Among its many 
achievements was the discovery that Pluto may have three moons, 
offering more insights into the nature and evolution of the Pluto 
system and Kuiper Belt. Through coordination of observations from 
several ground-based telescopes and NASA's Swift and other satellites, 
scientists solved the 35-year old mystery of the origin of powerful, 
split-second flashes of light called gamma-ray bursts. The Tropical 
Rainfall Measuring Mission (TRMM) provided data to aid our 
understanding of the changes inside a hurricane, helping scientists re-
create storms on computer forecast models, which can assist in the 
forecasting of future tropical cyclone transformations. On January 19, 
2006, we successfully launched the New Horizons Mission, beginning its 
9 year journey to Pluto for scientific discovery. On April 25, 2006, 
CALIPSO (Cloud-Aerosol Lidar and Infrared Pathfinder Satellite 
Observations) and Cloudsat are scheduled to launch from Vandenberg Air 
Force Base. Together, they will provide new perspectives on Earth's 
clouds and aerosols, answering questions about how they form, evolve, 
and affect water supply, climate, weather, and air quality. Truly, this 
has been a successful year of science achievements--a trend I expect to 
continue.
    NASA's FY 2007 budget request provides $5,330 million for the 
Agency's Science portfolio to explore the universe, solar system, and 
Earth. My decision to curtail the rate of growth for NASA's Science 
missions is not intended in any way to demonstrate any lack of respect 
for the work done by NASA Science. On the contrary, NASA's science 
missions remain one of the Nation's crowning achievements, and NASA is 
a world leader with 54 satellites and payloads currently operating in 
concert with the science community and our international partners. My 
decision to slow the rate of growth for NASA's Science missions is 
simply a matter of how the Agency will use the available resources 
within the overall NASA portfolio. In fact, the Agency's Science budget 
has grown much faster than NASA's total budget since FY 1993. In 1992, 
the Science budget represented only 24 percent of the overall NASA 
budget while it represents 32 percent of the Agency's budget in FY 
2007. NASA's Science budget is moderated to 1.5 percent growth in the 
FY 2007 budget request compared with the amount appropriated for NASA 
in FY 2006 (in accordance with NASA's Initial Operating Plan provided 
to the Committee) and then 1 percent per year thereafter through FY 
2011.
    In the FY 2007 budget, there are some additional budget shifts 
within the Science portfolio to rebalance the program to better reflect 
our original science priorities and remain consistent with the FY 2006 
Budget Amendment. Within the Science budget, the Solar System 
Exploration budget provides $1,610 million to fund missions to all 
solar system bodies and to maintain the Deep Space Network. Mars 
exploration is kept at roughly its current level of funding which 
allows missions every 26 months when the Earth and Mars are in 
planetary alignment. Mars will be the most thoroughly studied planet 
besides our own Earth. NASA continues a series of openly competed 
missions for Discovery, New Frontiers, and Scout missions to various 
planetary bodies in the solar system. Juno, a competitively-selected 
mission to study Jupiter, is slated to be the next New Frontiers 
mission, following the New Horizons mission on its way to Pluto after 
its successful launch in January.
    After extensive reviews, NASA has extended the mission operating 
life of several Earth Science missions including TRMM and Terra, 
Heliophysics missions such as both Voyager spacecraft, and Astrophysics 
missions including Chandra and the Wilkinson Microwave Anisotropy 
Probe.
Aeronautics Research
    NASA's FY 2007 request for the Aeronautics Research Mission 
Directorate is $724 million. Proper stewardship of this funding 
requires a coherent strategic vision for aeronautics research, which we 
are working to develop. While I am concerned that our Nation's aviation 
industry not lose market share to global competitors, NASA's research 
must benefit the American public by supporting a broad base of 
aeronautics research. NASA's aeronautics research cannot and will not 
directly subsidize work to specific corporate interests. There are 
fundamental questions in aeronautics research needing to be answered, 
and NASA will focus its aeronautics research on those issues. NASA will 
take responsibility for the intellectual stewardship of the core 
competencies of aeronautics for the Nation in all flight regimes, from 
subsonic through hypersonic flight. We will also conduct the 
fundamental research that is needed to meet the substantial challenges 
of the Next Generation Air Transportation System (NGATS), and we intend 
to work closely with our agency partners in the Joint Planning and 
Development Office (JPDO).
    Across our aeronautics portfolio, NASA is taking a long-term, 
strategic approach to our research plans to ensure that we pursue the 
cutting-edge across the breadth of aeronautics disciplines that will be 
required to support revolutionary capabilities in both air vehicles and 
the airspace in which they fly. NASA's commitment to technical 
excellence requires a commitment to rigor and discipline and will not 
focus on demonstrations that lack the traceability and scalability 
required for true scientific and engineering advancement. Hence, we are 
turning away from the four-demo approach proposed last year under the 
Vehicle Systems Program. Instead, our Fundamental Aeronautics Program 
will focus on fundamental research that addresses aeronautics 
challenges in areas such as aerothermodynamics, acoustics, propulsion, 
materials and structures, computational fluid dynamics, and 
experimental measurement techniques. The Fundamental Aeronautics 
Program will generate data, knowledge, and design tools that will be 
applicable across a broad range of air vehicles in subsonic (both fixed 
and rotary wing), supersonic, and hypersonic flight.
    In the Aviation Safety Program, NASA is developing strategic 
research plans, ensuring that the research conducted will lead to 
capabilities and technologies for improving safety consistent with the 
revolutionary changes anticipated in air vehicles foreseen in the 
future. The focus will be vehicle-centric, with areas of research that 
include vehicle health management, resilient aircraft control, aging 
and durability challenges, and advanced flight deck technologies.
    In the Airspace Systems Program, NASA will conduct the fundamental 
research required to bring about the revolutionary capabilities 
articulated in the JPDO's vision for the NGATS. Our research will focus 
on the development of future concepts, capabilities, and technologies 
that will enable major measurable increases in air traffic management 
effectiveness, flexibility, and efficiency.
    In addition to the Aeronautics Research Mission Directorate's three 
research programs, NASA is committed to preserving as national assets 
those aeronautics test facilities which are deemed mission critical and 
necessary to meet the needs and requirements of the Agency and the 
Nation. NASA has established the Aeronautics Test Program (ATP), a 
component of the Shared Capability Assets Program (SCAP), as a long-
term, funded commitment by NASA to retain and invest in test 
capabilities that are considered important to the Agency and the 
Nation. ATP's purpose is to ensure the strategic availability of the 
requisite, critical suite of wind tunnel and ground test facilities 
which are necessary to meet immediate and future national requirements.
    As part of our overall portfolio, NASA program managers and 
researchers will work closely and constructively with industry, 
academia, and other government entities to enhance our Nation's 
aeronautics capability. In this vein, as a principal member of the 
interagency JPDO, NASA has established investment priorities that 
directly address the research and development needs of the NGATS which 
will enable major increases in the capacity and mobility of the U.S. 
Air Transportation System. NASA also plans to collaborate closely with 
industry and academia through the use of competitive research awards 
and Space Act agreements on prospective research work in line with the 
critical thrust areas of the Aeronautics program that will enable 
numerous commercial aviation and scientific applications. Our goal is 
to focus our total research investments on fundamental aeronautics 
questions that need to be answered, and that will benefit the broader 
community of academia, industry, and government researchers. We will 
transition the achievements from NASA's Aeronautics research and 
technology for use by both Government and industry. Additionally, and 
in line with the refocused program's priorities, NASA will leave to 
others work more appropriately performed or funded by other Agencies or 
the private sectors.
    In accordance with the NASA Authorization Act of 2005 (Pub. L. 109-
155) and the FY 2006 Science, State, Justice, Commerce, and Related 
Agencies Appropriations Act (Pub. L. 109-108), NASA and the Office of 
Science and Technology Policy have been jointly developing a National 
Aeronautics Research and Development Policy which will establish a 
long-term policy and guidance for future aeronautics research and 
development activities. This policy will establish the appropriate role 
for Federal investment in U.S. aeronautics research: near- and far-
term, high-priority objectives; roles and responsibilities of the 
multiple agencies involved; and, guidance on related infrastructure and 
workforce challenges.
Cross-Agency Support Programs
    In the FY 2007 budget, NASA proposes a new direct budget category 
for programs that cut across NASA's portfolio of space exploration, 
scientific discovery, and aeronautics research. These Cross-Agency 
Support Programs include: NASA's Education programs funded at $153.3 
million; Advanced Business Systems, or more commonly known as the 
Integrated Enterprise Management program, is called out as a separate 
program rather than being budgeted from within Corporate and Center 
General and Administrative accounts and is funded at $108.2 million; 
NASA's Innovative Partnership Program, including Small Business 
Innovation Research (SBIR) and Small Business Technology Transfer 
(STTR), has been transferred from Exploration Systems so that these 
partnerships may better address Agency-wide needs and is funded at 
$197.9 million. Also, the Shared Capabilities Assets Program is funded 
at $32.2 million (with additional funding located in the Mission 
Directorates) and will ensure that NASA's unique facilities (e.g., wind 
tunnels, rocket engine test stands, high-end computing, thermal vacuum 
chambers, and other capital assets) are adequately managed with agency-
level decisionmaking to address NASA's and the Nation's needs.
    NASA's Education budget request sustains our commitment to 
excellence in science, technology, engineering and mathematics (STEM) 
education to ensure that the next generation of Americans can accept 
the full measure of their roles and responsibilities in shaping the 
future and meeting the workforce needs to implement the Vision for 
Space Exploration. NASA will continue to provide innovative programs 
that use STEM resources (NASA content, people, and facilities) to 
inspire the next generation of explorers and innovators. I have 
outlined three primary goals for our education investments: (1) 
strengthening NASA and the Nation's future workforce; (2) attracting 
and retaining students in the STEM pipeline; and, (3) engaging 
Americans in NASA's mission through partnerships and alliances. The 
greatest contribution that NASA makes in educating the next generation 
of Americans is providing worthy endeavors for which students will be 
inspired to study difficult subjects like math, science, and 
engineering because they too share the dream of exploring the cosmos. 
These students are our future workforce. Our education investment 
portfolio is directly linked to our overall workforce strategy.
NASA Workforce Strategy
    The Vision for Space Exploration is a unique endeavor that will 
last many generations. The NASA management team has been working to 
build NASA as an institution having ten healthy field Centers known for 
technical excellence. We continue to define program management and 
research roles and responsibilities for each Center in order to carry 
out NASA's missions of space exploration, scientific discovery, and 
aeronautics research. All of our centers must contribute to NASA's 
primary missions. We are beginning the process of assigning specific 
research programs and projects to appropriate NASA Centers. We are not 
done, but we are taking the necessary steps to make it happen.
    We have many challenges in the Agency, but none more important than 
the technical excellence of NASA's workforce. Likewise, we are 
beginning to address the problems posed by the aging of NASA's 
facilities and physical assets. The overall objective is to transform 
the composition of NASA's workforce so that it remains viable for the 
long-term goals of NASA's missions. We have a lot of work cut out for 
us in the coming months and years ahead in assigning these program 
responsibilities and rebuilding the Agency's technical competence in 
performing cutting-edge work. NASA has been addressing the challenge of 
mitigating the number of civil service employees in the Agency that are 
not currently assigned or supporting NASA programs (the so-called 
``uncovered capacity'') through a number of means, which were addressed 
in a draft report, shared with the Subcommittee in February in 
compliance with the NASA Authorization Act of 2005. The final workforce 
report, reflecting input from our unions, was submitted to the 
Subcommittee on April 13. NASA will conduct a reduction in force of our 
civil servants only as an action of last resort consistent with our 
statutory constraints. Instead, NASA is focusing its efforts to solve 
its uncovered capacity workforce problems through a number of other 
actions, including the assignment of new projects to research Centers 
that will strengthen their base of in-house work, the Shared Capability 
Assets Program that should stabilize the skills base necessary for a 
certain specialized workforce; the movement of certain research and 
technology development projects from certain centers not suffering from 
uncovered capacity problems to centers that are; retraining efforts at 
field centers so that the technical workforce can develop new skills; 
and the pursuit of reimbursable work for projects and research to 
support other government agencies and the private sector through Space 
Act Agreements.
NASA's Financial Management
    Earlier this month, NASA notified the Committee that it had two 
violations of the Antideficiency Act. The violations resulted from the 
Agency's failure to request from the Office of Management and Budget 
timely reapportionment of Congressionally-approved FY 2004 funds and 
timely apportionments of unobligated balances carried over from FY 2004 
to FY 2005. The Agency has corrected the errors without the need for 
additional appropriations. The Agency has also identified the root 
cause of these errors and has addressed them through its aggressive 
staff training and process improvements.
    NASA has continued to make progress in addressing its other 
financial management and reporting challenges. The Office of Management 
and Budget has recently provided feedback to NASA affirming the 
Agency's progress. The Agency finalized a Corrective Action Plan 
addressing financial weaknesses identified in NASA's 2005 financial 
audit. The plan was delivered to the Congress, specifically at the 
request of the Subcommittee on Space and Aeronautics of the Committee 
on Science and the Subcommittee on Government Management, Finance and 
Accountability of the Committee on Government Reform, on February 15, 
2006. It incorporates the expert advice of NASA's Inspector General. In 
addition, we have reviewed the plan with the Office of Management and 
Budget. This Corrective Action Plan provides an integrated, cross-NASA 
approach to resolving the Agency's outstanding deficiencies. 
Implementation of these corrective actions is reviewed regularly by the 
NASA Deputy Administrator. While these corrective actions will require 
some time to implement, NASA remains committed to improving its 
financial management and reporting.
Impact of Earmarks on NASA's Mission
    NASA pioneers the future in space exploration, scientific 
discovery, and aeronautics research. In order to carry out this 
mission, NASA awards peer-reviewed science grants and conducts 
competitively-selected procurements to select research and development 
projects to benefit the public based on the priorities of the Congress, 
President, and scientific community. NASA is implementing these 
priorities within the resources provided. NASA's FY 2006 appropriation 
totals $16.623 billion, including $349.8 million in emergency 
supplemental appropriations for Hurricane Katrina recovery at NASA 
facilities in Louisiana and Mississippi. Within this FY 2006 
appropriation is a total of $568.5 million in directed funding for 198 
discrete site-specific and programmatic Congressional interest items, a 
record high in both dollar amount and number of individual items. These 
Congressional interest items are offset by reductions within NASA's 
budget, to ongoing and planned NASA programs. Earmarks have increased 
by a factor of more than 30 in number and almost 8 in dollar value 
since FY 1997, when NASA was earmarked $74 million, for 6 discrete 
items. The growth of these Congressional directions is eroding NASA's 
ability to carry out its mission of space exploration and peer-reviewed 
scientific discovery.
    In formulating our budget, NASA prioritizes activities to achieve 
an integrated package of programs and projects to best achieve the 
priorities that have been provided us by both the President and the 
Congress. The redirection of funding erodes the integrity of our plans, 
has resulted in delays and/or cancellation of planned activities, and 
may conflict with timely development of the CEV. In FY 2006, as a 
result of earmarks, NASA had to redirect a significant portion of many 
planned budgets. Fully 50 percent of the planned Education program 
required redirection, 16 percent of the Innovative Partnerships 
Program, 5 percent of the Exploration Systems budget, and 4 percent of 
the Science budget. Further, the scientific community bases its 
research priorities on a peer-review process. Congressional site-
specific earmarks circumvent this process for setting research 
priorities within the science community and erode the integrity of that 
process. Site specific earmarks to institutions outside of NASA 
exacerbate the problems of NASA's ``uncovered capacity'' workforce, 
where NASA civil servant scientists and engineers do not have funds for 
their own research and development projects. As stated in the 
President's ACI, ``The rapidly growing level of legislatively directed 
research funds undermines America's research productivity.'' NASA seeks 
the assistance of this Committee and Congress in reducing earmarks in 
the FY 2007 budget process.
NASA's Next Steps
    For the last three decades, NASA and the Nation's human spaceflight 
program have been focused on the development and operation of the Space 
Shuttle and the ISS. In its final report, the Columbia Accident 
Investigation Board (CAIB) was very forthright in its judgment that 
these goals are too limited to justify the expense, difficulty, and 
danger inherent to manned spaceflight, given the limitations of today's 
technology. The CAIB was equally forthright in calling for a national 
consensus in the establishment of a program having broader strategic 
goals. The Vision for Space Exploration is that endeavor. The Congress 
has endorsed it, and NASA is working to implement it. But to effect 
these changes, NASA must engage in a major transformation--taking the 
capabilities we have throughout the Agency and restructuring them to 
achieve a set of goals for the 21st century that we have outlined 
earlier this month in our 2006 NASA Strategic Plan. This is an enormous 
challenge, but we have begun to transform our entire organization to 
foster these changes and to enhance a positive, mission-driven culture.
    The CAIB was also clear in its assessment that the lack of open 
communication on technical and programmatic matters was a direct cause 
of the loss of Columbia. We have understood and embraced this 
assessment, and are absolutely and completely committed to creating an 
environment of openness and free-flowing communication. However, NASA 
still has to make a number of improvements in its internal 
communications as well as how we communicate externally to our 
stakeholders, the scientific community, and the public. NASA is making 
a concerted effort to address all problems in this area.
    For America to continue to be preeminent among nations, it is 
necessary for us also to lead in space exploration, scientific 
discovery, and aeronautics research. It is equally true that great 
nations need allies and partners. The spirit of innovation and the 
muscle of government and industry are needed to turn the Nation's 
Vision for Space Exploration into reality. These journeys to the ISS, 
the Moon, Mars, or even Pluto are the most difficult things our Nation 
does. June Scobee Rodgers, the widow of Dick Scobee, Commander of the 
Space Shuttle Challenger on that ill-fated day twenty years ago, 
recently noted, ``Without risk there's no discovery, there's no new 
knowledge, there's no bold adventure . . . the greatest risk is to take 
no risk.'' We must continue our journey. America, through NASA, leads 
the way.
    Once again, thank you for the opportunity to testify today. I would 
be pleased to respond to any questions that you may have. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Hutchison. Thank you very much for the statement 
and for working with us on the authorization bill, because I do 
think it was a landmark that we passed it, the first one in 5 
years, and this Committee led the way, and we want to continue 
to do so.
    I want to ask you, along the lines of the authorization 
bill, what kinds of opportunities do you see for outside-NASA 
funding for some of the research projects that we hope would be 
more of the basic science research, as opposed to just the 
human spaceflight research?
    Dr. Griffin. There, I think, are opportunities. We, at 
NASA, were pursuing those in the period of time before we lost 
Columbia. I think it will come as no surprise to you, Senator, 
and to this Committee, that when we lost Columbia, those 
efforts were shut down rather abruptly. We are now reinstating 
those. We have an agreed-upon plan with our international 
partners to finish the Station, a plan supported by this 
administration and this Congress, that utilizes, appropriately, 
the Shuttle flights we have left. In parallel with that, we are 
restarting our efforts to seek both commercial partnerships, as 
well as partnerships within DOD and other Federal agencies to 
utilize the Station. With luck, and with effort on our part, 
those initiatives will begin to bear fruit around the time that 
we have a larger crew complement aboard the Station to be able 
to do the research and transportation systems which can help us 
out.
    Senator Hutchison. Is the National Science Foundation and 
perhaps the Department of Energy, are those two also on the 
horizon for potential partnerships for the Space Station 
research?
    Dr. Griffin. We will be talking to all of the Federal R&D 
agencies, as well as some of the significant commercial players 
that we were speaking with in earlier years, and trying to 
reinvigorate those efforts.
    Senator Hutchison. Let me ask you, in your opening 
statement you mentioned commercial possibilities for launch and 
for taking crew back and forth. What is the timetable that you 
envision that you might be able to test that? And is it what 
you're looking at to close the gap between 2010 and 2014, or is 
it a different timetable?
    Dr. Griffin. No, you are exactly right, Senator. We are 
looking for commercial capability. With our money, we are 
looking to stimulate the development of commercial capability 
to help bridge the gap between 2010 and, at the latest, 2014, 
for the CEV, and also to continue on beyond, because we believe 
that if we can use some of our money as seed funding to help 
stimulate the growth of that commercial capability, that we 
will save money in basic cargo, and, later, crew transportation 
services, that can be applied to more far-reaching things, 
where NASA should properly be involved.
    Senator Hutchison. So, your goal is 2010----
    Dr. Griffin. My goal is 2010, or as soon thereafter as we 
can make it. Currently, we're in source selection on that 
effort, I don't yet know what the offerors are offering. But as 
soon as we do, we will, believe me, be happy to work with your 
committee on this. This is my initiative, and it is one that I 
hold close. I'm asking for the Committee's support in 
sustaining that commercial initiative.
    Senator Hutchison. Well, let me say, for one committee 
person, that I think that is a very good proposal, if it can 
actually work, because something Senator Nelson and I have been 
united on is not having a gap. And we know we've been pushing 
and, sort of, trying to get blood out of a turnip, if you will. 
But if there is the capability for Americans to go into space 
between 2010 and 2014, I will feel much more secure. So, I hope 
that you will continue to keep us up to date on that.
    Dr. Griffin. Senator, you have no stronger advocate than I 
for the preservation and protection of our U.S. human 
spaceflight capability. I share those goals. We have devoted as 
much of our resources to that effort as we believe we prudently 
can. Consistent with the fact that finishing the Space Station 
with the Space Shuttle has to be our first priority, as you, 
yourself, have stated, and frankly, the budget resources for 
that did not exist in our budgets when I came onboard. We have 
fixed that, but, to some extent, it has been at the expense of 
the CEV.
    Senator Hutchison. Senator Nelson?
    Senator Bill Nelson. Madam Chairman, I would defer to the 
Chairman of the Committee.
    The Chairman. Go right ahead.
    Senator Bill Nelson. Well, thank you.
    The 4-year gap worries me because it goes back to the 
initial plan, 2014. We know, on the basis of the experience 
with the Space Shuttle, that it was supposed to fly in 1978, 
but it didn't fly for another 3 years. And if that were to 
occur with the CEV, then we're down for 6 or 7 years. 
Furthermore, who knows what the geopolitics of access to space 
with humans is going to be in the year 2015. Do you have any 
way of shortening it?
    Dr. Griffin. Sir, the budget I've recommended, and that the 
administration has supported and put forth and is being brought 
to this Committee, balances, if you will, the hard choices that 
have to be made by each of our different portfolios--science, 
aeronautics, Shuttle, Station, exploration. The only way to 
narrow the gap between the retirement of the Shuttle and the 
operational capability of the CEV would be to put more money 
from some other source into that. We really cannot take money 
from the Shuttle and Station. We might, after 25 years of 
experience, regret that the Shuttle and the Station cost what 
they cost. And we resolve, all of us, to do better next time. 
But we cannot claim, after 25 years, that we don't know what 
they cost. We do know what they cost. And we have now budgeted 
for that. But there's no money to be found there.
    We have done what we desperately did not want to do, which 
was to take $2.2 billion from science and $1.6 billion from 
exploration to make sure that we did fund, adequately, the 
Shuttle and Station. And aeronautics is funded at less then $1 
billion, so that is not a place to go, as well.
    So, within my constraints, Senator, I must respectfully say 
that I believe I have put together the best-balanced program 
that I know how to give you. And, regrettably, it features a 
several-year gap between Shuttle retirement and CEV operational 
use.
    Senator Bill Nelson. The budget that has been put forth is 
already more than a billion dollars less than the amount that 
was authorized by the Congress in the NASA authorization bill. 
So, what if we gave you another billion dollars. How would you 
allocate that?
    Dr. Griffin. That's not a question that I would want to 
answer off the top of my head, because we made many reductions 
across the board in NASA, all of them to things that all of us 
would like to do. So, I would want to take that question for 
the record and say what we would do.
    [The information referred to follows:]

    We sought, in our budget request, to achieve the necessary balance 
of priorities over the 5-year budget horizon, and I think we got it 
right given the constraints we had. Given the current budget 
constraints facing the Nation, we do not believe that NASA's budget 
should be increased above the requested level. If NASA were to receive 
more funding to our top-line, there are some key factors I would use 
for deciding where to provide those funds.

1. Preserve the Integrity of the President's Request
    The first priority would be to preserve the integrity of the 
President's budget request. In formulating our budget, NASA prioritizes 
activities to achieve an integrated package of programs and projects to 
best achieve the priorities that have been provided us by both the 
President and the Congress. There are items that threaten to erode that 
integrity in the course of the appropriations process, such as earmarks 
and rescissions. Last year, as an example, content that was planned in 
the President's request had to be reduced $778.6 million to accommodate 
rescissions and fund Congressional interest items. NASA seeks the 
assistance of the Congress in reducing earmarks in the FY 2007 budget 
process, but, should there be earmarks or rescissions this year, 
additional topline funding would be used to avoid otherwise necessary 
reductions to content in the President's request.

2. Restore Funding Borrowed for Hurricane Recovery
    NASA borrowed $100 million in FY 2005 funds from the Shuttle and 
International Space Station (ISS) programs to provide immediate support 
of hurricane recovery efforts in the Gulf region before any 
supplemental funds were provided. The Space Shuttle and ISS Cargo/Crew 
program requirements for those funds still remain. The intent was to 
eventually repay these programs for this initial outlay of funds, and 
NASA has repaid $20 million of the amount borrowed. NASA is seeking 
transfer authority in the pending supplemental that would allow us to 
repay more of these FY 2005 funds.

3. Avoid Adding New Content That Is Not Affordable in the Budget Runout
    If we had a higher top-line, and funds were available in excess of 
what would be needed for items one and two, we would have to re-look at 
the balance of our portfolio. However, we would need to do so with a 5-
year perspective, not just the 1-year view. The plain fact is that NASA 
simply cannot afford to do everything that our many constituencies 
would like the Agency to do. We must set priorities, and we must adjust 
our spending to match those priorities. I will not start new projects 
for which I know I do not have sufficient funding in the outyears--that 
would not be responsible, and has caused NASA problems in the past by 
putting too much on our plate.

4. Assess Priorities and Portfolio Balance, and Then Allocate Remaining 
        Funds
    Consistent with the priorities of both the President and those 
enacted by the Congress through the NASA Authorization Act of 2005 
(Pub. L. 109-155), NASA would assess our portfolio and determine the 
most effective allocation of funds. Consistent with item three, the 
effect of these funds would not be to start new activities that would 
create unfunded outyear liens for NASA. The use of these funds 
therefore, would primarily be to increase the health of ongoing 
activities rather than create new ones.

    Senator Bill Nelson. OK. I wish you would because if the 
Congress were to appropriate according to the authorization, 
the NASA authorization, then it would be in excess of a billion 
dollars more than your request. You are constrained by OMB, and 
you have, with some emotion, stated how difficult it has been, 
given your constraints.
    Well, let's talk about a more optimistic outlook. You 
apparently feel quite optimistic about a Shuttle manifest on 16 
or 17 flights to complete the Space Station. Why don't you 
share with the Committee your outlook.
    Dr. Griffin. Yes, Senator, I'm pleased to do that.
    Our return-to-flight sequence was always offered as two 
flights, because we knew there was a lot that we did not know 
about foam shedding from the external tank, and there is no 
facility on the ground which can be used to test it. It must be 
test flown. We experienced an unwanted and unplanned loss of a 
major chunk of foam from the STS-114 flight. Otherwise, the 
tank really did pretty well. We believe we've fixed that. We 
are looking at other areas on the tank. In fact, I mentioned to 
you that the decision meeting on exactly what our final 
configuration for the tank will be, and our selected launch 
date will be this Thursday--and I'll be happy to share that 
with you or your staff when we've made that.
    We believe we will be in good shape to fly, this July. We 
believe that, when we fly, we will fly well. When we fly, and 
fly well, we believe that we will be back in shape to execute 
Shuttle flights at our historical and average rate over the 
last 25 years, which, including downtime for two accidents, is 
more than four and a half flights per year, on average, 
including downtime. We now have three orbiters that are 
essentially fresh from depot maintenance.
    So, we believe that once we are successfully returned to 
flight, we will easily be able to complete 16 flights for 
Station assembly and one flight for Hubble servicing. If that 
picture changes, if our engineers are surprised again, I will 
be absolutely open and forthcoming with this Committee and our 
other national stakeholders, and we will discuss the problem. 
But, right now, we believe we're in good shape to get back to 
flying and to finish the Station.
    Senator Bill Nelson. Just to conclude that thought, share 
with the Committee how important, in your mind, it is that we 
utilize this investment by completing the Space Station and the 
scientific goals that you expect to achieve.
    Dr. Griffin. Well, I believe it's important--and I've been 
on record on this--I believe it's important to complete the 
Station, for several reasons, reasons going beyond the science. 
But, very specifically, we will use the Station to study more 
carefully the effects of zero gravity on humans in space, in 
preparation for longer voyages of exploration.
    Most crucially to me, as an engineer, we will use the 
Station as a place to learn how to live and work in space. When 
we talk about setting forth on voyages to Mars 20 years from 
now, we need to know many things that we do not know. I've 
often used this analogy in a speech, so bear with me, if you 
will. Suppose someone were to ask the Navy today to put a crew 
onboard a submarine, seal the hatch up, tell them to leave port 
and not return for 2 and a half years, ``You can't surface, and 
you can't catch any extra food.'' How do you think they'd do? 
We can't do that today. Until we can successfully conduct that 
experiment, we're not ready to go to Mars. And the Space 
Station is the place where we're going to learn how to do that.
    Also, the United States made commitments--and this is 
extraordinarily important--as a leader among spacefaring 
nations, with 15 of those nations, to execute the Space Station 
program. The President has very forthrightly said that he 
believes the Vision for Space Exploration should involve 
partnership with other nations. How? I ask myself, how can we 
expect other nations to partner with us and hope that we will 
keep our word in another 15 or 20 years if we don't keep it 
today?
    So, for those reasons, I believe it is important, was 
important, and will be important to finish the Station, 
consistent with our promises.
    Senator Bill Nelson. Thank you.
    Senator Hutchison. Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Well, thank you very much, Madam Chairman. If 
you would just put my statement--opening statement at the 
beginning of the hearing, I'd appreciate it.
    Senator Hutchison. Without objection.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    I am delighted to see Dr. Griffin here again, a little over a year 
since we confirmed him as NASA Administrator. It has been a busy year, 
for him and for the Committee.
    We passed and enacted the first reauthorization bill for NASA in 5 
years, and put the Congress on record in support of the Vision for 
Exploration.
    We authorized funding levels that were carefully drawn up to help 
NASA meet the challenges of shifting to the new Vision with a minimum 
of disruption to important ongoing programs in human exploration and to 
other important NASA programs in Space Science, Earth Science, and 
Aeronautics Research.
    Unfortunately, the White House asked for over a billion dollars 
less than we authorized, so we are seeing some of those disruptions we 
had hoped to avoid.
    This has placed many challenges on you, Dr. Griffin, in trying to 
divide a smaller piece of the budgetary pie, and you have been asked 
here to tell us about those challenges and how you are dealing with 
them.
    We will also be looking into steps we might be able to take in the 
Congress to help you meet some of those challenges, and I look forward 
to working with you to see if, together, we can find some helpful 
answers.
    The space program is an important part of our Nation's ability to 
keep our competitive edge, and to stimulate interest in science and 
education, and we will be addressing those issues in future hearings 
and in legislation we may be considering in the future.
    Thank you for your service at NASA, and I look forward to your 
testimony today.

    The Chairman. I'm interested in----
    Senator Hutchison. And thank you--I want to say, Mr. 
Chairman, how supportive you have been of NASA and space in the 
full Committee, and I really appreciate it, because I think the 
initiatives that we're making have made a huge difference 
already, and will have a lasting impact. So, thank you.
    The Chairman. Well, you're very generous.
    Dr. Griffin, I'm interested in your concept of the private-
sector participation. But do you envision a partnership or--a 
true partnership or just contractual relationships with the 
private sector?
    Dr. Griffin. I think we could contemplate both of those. 
And I would hope for both of those. But the first thing that I 
believe that NASA, frankly, needs to learn to do is to learn 
how to conduct and conclude an arms-length commercial 
transaction with a supplier of services that we need.
    I've used this analogy before, as well, but if you'll bear 
with me, I'll use it again. In the growth of aviation--and you 
are a pilot, and you know aviation as well as anyone--this 
Nation never had any trouble distinguishing two facets of 
aviation. In one facet, the government participated in the 
development of the arts and sciences of aviation, and bought 
airplanes, and built its own airplanes from commercial 
suppliers--or from suppliers; and in other areas, the U.S. 
Government bought services, tickets, or cargo space on 
airplanes.
    In developing space, we, at NASA--frankly, in the Defense 
Department--have largely relied upon buying hardware rather 
than contracting with industry to provide services that we 
need. Some of that has been the historical nature of the 
development, and some has been cultural.
    Now, for the first time, with the International Space 
Station, we have a market, if you will, sir. We have a regular, 
steady market for goods and services and, later, when they have 
the capability, crew rotation, a market that I can turn over to 
industrial suppliers, if they can be made to exist. They don't 
exist right now. But, by providing the seed money that I've 
referred to in my earlier statement as an incentive to 
accompany investment on the part of the commercial operators 
themselves, we might be able to create this capability.
    The analogy that I would use would be the difference 
between the government buying a tanker aircraft and the 
government buying a ticket for its personnel to fly in a 
commercial version of that same aircraft. That's what I'm 
striving for, sir.
    The Chairman. Well, you're right, I've lived through the 
process of the development of the aviation community, 
particularly the military side, and I can distinctly remember, 
as a young boy, going out and watching the fly-off at the Los 
Angeles Airport, where the companies made the airplanes and 
competed with one another for the contract with the Federal 
Government. That has changed now, because we design the 
airplane, and then they compete to, really, produce it. Aren't 
we missing something, in terms of space? It does seem to me 
there's a link to the Space Station. And that is totally 
Federal, right? There's no competition from the private sector 
that, is there?
    Dr. Griffin. No, you're----
    The Chairman. Do you contemplate any?
    Dr. Griffin. No, sir. The International Space Station, our 
space platform, is a Federal development----
    The Chairman. I'm talking about the access to it----
    Dr. Griffin. Current access----
    The Chairman.--in terms of the Shuttle. Are you----
    Dr. Griffin. Current access to it is entirely Federal, yes, 
sir.
    The Chairman. Do you contemplate offering an opportunity to 
the private sector to develop that access?
    Dr. Griffin. That is exactly what we are contemplating, 
sir. That is exactly what we are contemplating.
    The Chairman. And what's the timeframe for that?
    Dr. Griffin. I'm hoping, this spring, to conclude Space Act 
agreements for demonstrations of this capability with one or 
more potential suppliers, and, if those demonstrations go well, 
to be able to transition to actual commercial contracts for 
service by these suppliers, initially for cargo, and then, if 
it works well, later for crew, in the next 5, 6, 7 years.
    Senator Hutchison. 2010?
    Dr. Griffin. Am I----
    The Chairman. 2010.
    Dr. Griffin. Am I being--am I being clear, sir?
    The Chairman. Yes. I--well, I had missed that connection, 
because it does seem to me that that is where we could lead the 
world, with the ingenuity of our private sector, if it were 
stimulated and they really believe that we're going to make 
that broad jump.
    Dr. Griffin. That's exactly right. And with the Space 
Station, I have a known and predictable market that they can 
serve. So, the commercial suppliers, if we can help bring them 
into being, will not have to worry that the government will 
decide, next month or next year, not to launch.
    The Chairman. Well, let me make a----
    Dr. Griffin. We can't not launch, because we have to supply 
the Station.
    The Chairman. Just one other question to take it beyond 
that. And that is, do you contemplate that the private sector 
could contract with the private providers of the access to take 
private experiments to Space Station?
    Dr. Griffin. Yes, sir. That could follow, as well. 
Absolutely. That is my hope. Further, I hope that by the time 
we are ready to return to the Moon, that there will be such 
capability in existence that we can hire, if you will, to help 
with certain parts of the effort.
    The Chairman. Let me ask just one question here. I'm sure 
you're familiar with Norm Augustine's report on The Gathering 
Storm, and NASA used to be, really, the bright spot in our 
horizon for attracting bright young people to study science and 
technology, et cetera.
    Do you feel NASA still has that role?
    Dr. Griffin. Absolutely, sir. Absolutely. I'm sorry, I feel 
very strongly about this--the best thing NASA does, ever did, 
or can do to stimulate an interest in science, math, 
engineering, biology, any scientific subjects, is to do the 
kinds of things, the kinds of bold, far-reaching missions of 
exploration that attract kids to study hard subjects because 
they want to be part of it.
    I will relate, not for the first time, a personal story. I 
was 8 years old when Sputnik launched. And I was interested in 
space long before Sputnik launched. I was interested in it from 
the time I was 4 or 5 years old. So, I was in the odd position 
of being in the third grade and explaining to my teacher what 
Sputnik was and how it stayed up. I suspect that I was not 
typical.
    [Laughter.]
    Senator Bill Nelson. That's right.
    Dr. Griffin. But I went through school, all the way through 
college with a bunch of kids who got interested in science and 
engineering, aviation, all kinds of science and engineering, 
because of what happened with Sputnik and the reaction of the 
United States to Sputnik. In 1957 and 1958, we decided to build 
a great space program. And we did. We flew to the Moon, and we 
made plans to go farther. We never implemented those plans. 
And, yes, interest in studying difficult subjects waned as a 
result.
    I believe, to the core of my being, that if NASA does bold, 
far-reaching missions that excite the imagination, that kids 
will want to study science and math to be part of it. And those 
benefits will echo throughout our society, and make us, once 
again, the most technologically competitive nation on Earth.
    The Chairman. Well, let me close by saying this. As you 
know, we have a Challenger Learning Center in our state. But I 
sense that the support for those centers is dwindling, not only 
in our state, but throughout the country. What can we do to 
rekindle that support?
    Dr. Griffin. Again, sir, I have no better answer to 
rekindling the support for the Challenger Learning Centers and 
other space-related activities than to ask and require NASA and 
our space program to do the right things. And you've done that 
with the Authorization Act of 2005. With the Authorization Act 
of 2005, you have made the exploration of the solar system by 
the United States the law of the land. And now it's my job to 
implement the first steps of that. I said in my earlier 
statement, I need your help, and you've provided it. We are on 
the right path. We are on the right path for space exploration 
in this country for the first time, in my opinion, in 30 years.
    The Chairman. Well, I understand that, but I----
    Dr. Griffin. We just need to stay----
    The Chairman.--I don't----
    Dr. Griffin.--the course.
    The Chairman.--I don't sense the support from the private 
sector for those Challenger Learning Centers that we thought 
would follow the initiation of the construction and outfitting 
of those centers. And I would like to talk to you about that 
sometime.
    I do believe----
    Dr. Griffin. I would be----
    The Chairman.--that those centers are essential to interest 
grade school children and high school children, you know, to 
follow on in your path. But it's very difficult, right now, to 
maintain that support. I think it's because of the economy and 
the war and other things. But we certainly ought to improve it.
    I congratulate you. I--and I totally support your vision of 
trying to have a true partnership with the private sector in 
the total support of the Space Station.
    Thank you very much.
    Senator Hutchison. Thank you, Mr. Chairman.
    Dr. Griffin. Thank you, Senator.
    Senator Hutchison. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Madam Chairman. I'm really 
pleased you've called this hearing. And I've been listening to 
the testimony of Dr. Griffin--and thank you for being here 
today--and listening to the questions of my colleagues, focused 
on a variety of areas.
    And it's nothing--you should never apologize for feeling 
strongly about an issue, especially one that's so important to 
the competitiveness of our country, and that is more young 
people, particularly women, Latinos, and African-Americans, 
being more interested and encouraged into science and 
technology and engineering.
    One area where I do, as you well know, in our conversations 
from the beginning, when you were nominated by President Bush, 
where I feel that we're falling behind our competitors, is in 
aeronautics. I look at the proposed budget, and there is a 
decrease, not only in this year, but in out years. And I feel 
that, to the extent--if you want to look at the engineers in 
aeronautics, those engineers are generally older. How are you 
going to incent or interest young people in hypersonic flight 
and other aspects of aeronautics if the commitment of this 
country appears to be reducing in this area?
    The Administration has focused on the space exploration 
aspects of it, and directed, obviously, a great deal of 
resources there. And there are arguments one way or the other 
as to how much that investment should be. I do not 
necessarily--in fact, I think it's a good idea, your vision for 
exploration. I think that's--there's nothing wrong with it 
whatsoever. But I've stated, on many occasions, that the 
cutting-edge breakthroughs, whether it's--in particular, say, 
the new vehicle systems program--this constant cutting of this 
area and this research is bound to have an adverse impact on 
aeronautics in this country. And aeronautics is important for 
our economy, but it's also important for our national security. 
And I understand about budget priorities. And, obviously, last 
year, working with you, Madam Chairman, you were very helpful, 
as were others--but, in particular, you were a key ally in some 
of the mitigation of damages proposed, insofar as aeronautics 
funding. We're going to have to go through this entire battle 
again this year. And I know you recognize that. That's why I'd 
liked Senator Nelson's question, ``If you had another billion 
dollars,'' you know, where I think at least a good portion of 
that should go.
    Let me ask you this. Part of what we were--we adopted last 
year was the development of a national aeronautics research 
policy, so that it's not this annual pitched battle, where 
people who have spent their life in aeronautics research wonder 
if they're going to have a job, Are they going to be laid off? 
And there are also the commensurate number of folks in the 
private sector. And so, this, I think, was a positive step, the 
requirement of the development of a national aeronautics 
research policy.
    Could you share with us what is the policy that's going to 
be laid out and what options are being considered as you share 
with us the status of the development of this national 
aeronautics research policy?
    Dr. Griffin. Yes, Senator.
    First of all, the policy is due in December, and we'll have 
it by then. We're in the middle of working on it, as we speak. 
And we are working on it with our partners in OSTP, Defense, 
and FAA. It will be the first aeronautics policy for this 
Nation in a generation, as I know that you know, so we're 
taking it quite seriously.
    From NASA's perspective, we take the position that our 
proper role is in fundamental aeronautics research, the 
unknowns that accompany flight at the frontiers of knowledge. 
And it's our goal to push back that frontier in hypersonics, in 
subsonic flight, for research that's applicable to DOD. We want 
to look across the board, but we want to look at aeronautics 
research, fundamental aeronautical science, rather than, as has 
been the case in some recent years, focusing on development of 
demonstrator projects, which, in my judgment, have not been 
well connected with what went before, and didn't leave a legacy 
for something to come after. They were demonstrations of point 
designs rather than carefully thought out experiments to 
resolve areas of understanding in aeronautics. So, that's what 
we are doing.
    I have been fortunate to capture, from DARPA, as a matter 
of fact, one of the best people that it's ever been my pleasure 
with whom to work, a supporter, who is our AA for aeronautics. 
She and I would be happy to come up and discuss what we're 
doing, with you and your staff. But that's where we're going.
    We think restoring health to NASA aeronautics is as much 
about what we do as the exact specific dollar figure that we 
put on the work. Aeronautics has been decreasing, within NASA 
and within the Nation at large, for quite a long time. It did 
not originate with this Administration. And we believe that 
part of the reason for that is that we haven't been focusing on 
the right things. And that's what I'm trying to do.
    Senator Allen. Well, Dr. Griffin, you're correct, the 
previous Administration, the Clinton Administration, cut 
aeronautics research and development approximately in half, and 
the present Administration's--with the proposals, if they 
actually went through, would cut it in half again.
    What--we're in competition. Our European friends, 
obviously, have a determination, strategic plan, to dominate 
aeronautics by the year 2010--excuse me--2020. And they seem to 
be on the way. We've had--this past year was a good year, but, 
for the first time in history, a year ago, the United States 
was not number one in aircraft sales.
    Where do you see United States research and development in 
aeronautics, compared to our global competitors? Do you think 
that we are winning, holding our own, or falling behind in the 
research and development in aeronautics?
    Dr. Griffin. I don't think the measure of success in 
research and development in aeronautics is necessarily 
reflected in the balance of trade and sales of airplanes. I 
believe that----
    Senator Allen. It is an indicator.
    Dr. Griffin. It might be an indicator, as much, of 
marketing success--and it may be an indicator of industrial 
policies that are followed, but I personally--I can only tell 
you what I believe--I believe that the United States, in terms 
of the quality of its technical talent in the aeronautical 
sciences, is second to no one. We need to bring a better, and a 
different, focus to our work, and that's what I'm trying to do. 
But I believe NASA aeronautics researchers are the best in the 
world, and that what we do is still in the absolute forefront 
of the state-of-the-art.
    We do work that enables commercial development a generation 
hence to be better. There is nothing that we, at NASA, can do, 
or, in my opinion, should do, to influence next year's balance 
of airliner sales, or even 5 years from now. That's not an 
issue that we, at NASA, can address.
    Senator Allen. Well, for the entire history of flight since 
the Wright brothers, until that year, the United States was 
always number one in having the most advanced, most attractive 
aircraft for sales throughout the world. And while you may say 
it's a matter--measure of marketing, the United States has 
always been pretty good at marketing, as well. I don't think--I 
think that it's quality and value as part of it. And I think 
what--it's a very competitive international market. And the 
others have caught up, and, in some cases, passed us.
    Do you see the private sector making up for the reductions 
in some of this research and development that have been 
occasioned--you can take the last 8 years--do you see the 
private sector picking up any of the research and development 
funding?
    Dr. Griffin. Well, we try very hard not to do research and 
development----
    Senator Allen. Right.
    Dr. Griffin.--that the private sector would do, or 
indicates that they would do, which generally means not doing 
evolutionary development work that would be just a small 
increment--a performance increment beyond where we are, you 
know, a more efficient turbine blade or something like that, 
that would increase efficiency a percent or so. That's a very 
valuable thing to do. It makes money for the developer of the 
turbine blade and his jet engine, but, broadly speaking, is, I 
think, not a NASA responsibility.
    I think a NASA responsibility is to develop the kinds of 
newer, better, state-of-the-art computational fluid dynamics 
research tools and codes that enable everybody working in 
aeronautics to do better flow-field analysis, including, but 
not limited to, those people who want more efficient turbine 
blades. That example, which I just made up, but is, I think, a 
good one, is a difference between the kinds of things I think 
we ought to be doing at NASA and what commercial industry 
should do.
    I've been in industry. Industry does not have the 
resources, and does not have the time horizons in its planning, 
to worry about developing, in this example, to improve the 
state-of-the-art in computational fluid dynamics codes. 
Government has had, and still has, the history of that kind of 
groundbreaking research. Once that is done, it benefits the 
entire aeronautical sciences community, and that's where we 
strive to have leverage.
    Senator Allen. Understood. What NASA aeronautics needs to 
do, as you do, and others, is more of the high-risk----
    Dr. Griffin. Exactly.
    Senator Allen.--futuristic--that's why the--you mentioned 
the hypersonic aircraft, as well as, I mentioned the vehicle 
systems programs. And so, that's where we're--we need to 
concentrate. I also think it'll make a great deal of sense. I'm 
glad to hear that you have--working with DARPA and the 
Department of Defense, because, ultimately--I love DARPA. They, 
even, are more innovative, probably the most innovative of all 
the Federal agencies. It's just a great group.
    Dr. Griffin. I love them, too.
    Senator Allen. But to the extent you're working with them, 
also with the Department of Defense, it's important.
    And I look forward to working with you, Madam Chairman, and 
you Dr. Griffin, understanding that there are constraints, 
priorities need to be met. But I just don't want this key 
competence for our country's security and competitiveness to 
atrophy with inadequate funding and not--to the extent you get 
the private sector or other Federal agencies in on it, I think 
that makes some sense--a great deal of sense in some cases. And 
I look forward to working with you.
    And thank you, again, Madam Chairman and Dr. Griffin, for 
both of you alls leadership.
    Dr. Griffin. Thank you, Senator.
    Senator Hutchison. Thank you, Senator Allen.
    I would just suggest that it could be in your meetings with 
the Department of Defense where you are going to see how you 
can cooperate so that you're not duplicating effort. There may 
be things that the Department of Defense is doing through the 
Lockheed or the--for instance, on the Joint Strike Fighter--
maybe there are some things that could be picked up by private 
industry that even stretches the NASA dollars further, just as 
a--an idea to add to the mix.
    I want to pursue one other area, and then, if there is 
anyone else who has a second round----
    In your testimony, you talked about the downsizing, 
basically, of the engineers and technicians as you transition 
to the CEV and the Launch Vehicles. It appears that you are 
trying to use the technology that is the base of knowledge of 
many of your engineers for the CEV and the Launch Vehicle. My 
question is, How are you going to make the transition? I know 
you're going to try to use as many of the people you have and 
put them over into the CEV and the Launch Vehicle research, but 
how are you going to manage that transition? And do you think 
that you can take the same people, with their base of 
knowledge, and effectively use them in these new areas?
    Dr. Griffin. Yes, Senator, I have no doubt at all that the 
people who today work Shuttle and Space Station operations can 
transition over and work CEV operations and CLV, distinguishing 
between the vehicle and the launch system. So, I have no doubt 
that that will work just fine.
    Their skills are entirely appropriate--the difficulty is, 
of course, that the people who are working on the Shuttle today 
are needed for the Shuttle today, or we wouldn't be employing 
them. We must be very careful about diverting their attention 
from the Shuttle.
    Also, we are in a design stage on CEV and CLV; whereas, of 
course, Shuttle and Station are totally into operations. 
They're not doing any design. We don't want them to do any 
design. We want them to finish building what has been designed.
    So, we need to inform our design engineers through the 
experience of operations, so that good designs will result, by 
having some folks who are today in Shuttle and Station 
operations participate in the design of the successor systems, 
so that we get good information transfer.
    Similarly, we need to take some of our younger folks, who 
either are not, or have not, worked Shuttle and Station, and 
see to it that, before all of the older workforce transitions 
out completely, that we have an opportunity to educate some of 
our younger workforce in both industry and NASA in the 
realities of existing flying programs. And the flying programs 
that we have today are Shuttle and Station.
    We need a melding of all that we are doing, both the 
ongoing operational programs and the new design-phase programs, 
so that each properly informs the other, and we get the best 
value out of it.
    Senator Hutchison. What is your timetable in determining 
how you reconfigure these assets that you have?
    Dr. Griffin. We are working on it, as we speak. We report 
on it regularly within the agency. In the end, of course, we 
have to have our plans in place by Shuttle retirement. We have 
to know who will transition over to the new systems and who 
will have to go somewhere else and do something else. We don't 
have that yet. We just don't have that yet.
    Senator Hutchison. I suppose, when you start getting your 
returns on your proposals--or your requests for proposals on 
the CEV and the CLV, you'll begin to have better----
    Dr. Griffin. That will certainly help, because those 
proposals will come with estimates of the workforce necessary 
to launch and sustain them, and all of those things. Then, of 
course, we have the issues, as you well know--really, we have 
exactly the same issues as the Air Force Titan Program faced a 
year or two ago, when they were working up to flying the last 
Titan. They still needed the workforce that they needed to fly 
the second to last Titan or the third to last Titan. So, how do 
you keep the people onboard who are going to launch the last 
one? How do you provide incentives to them to stay with you for 
as long as you need them?
    Senator Hutchison. Well, I think you're on the right track. 
You show them where the future is.
    Dr. Griffin. We show them where the future is for those who 
transition over, and we must, in some fashion, provide 
incentives to those who won't be able to go with us and will 
have to do something else.
    Senator Hutchison. But I think your original concept of 
using basic Shuttle knowledge as you go into the CEV was a very 
visionary one, because that does keep more of your people.
    Dr. Griffin. Thank you. It seemed to me to be the best 
approach for retaining and capturing and utilizing the 
knowledge that we've spent tens of billions of dollars and two 
generations building. I didn't want to let it go.
    Senator Hutchison. Well, I'd like to be kept up as you 
begin to see the handwriting on the wall for that kind of 
transition.
    Dr. Griffin. And you know that I will do that.
    Senator Hutchison. Yes. Thank you very much.
    Senator Nelson?
    Senator Bill Nelson. Thank you, Madam Chairman.
    Dr. Griffin, you notice that our questions and our comments 
are certainly most felicitous in nature. And we are here not 
only as encouragers, but we're also here as cheerleaders for a 
program that we happen to love and that we think is very, very 
important to the future of this country.
    Now, I want to get back to the law. The law of this country 
now is the NASA Authorization Act. And in that law it says it 
is the policy of the U.S. Government that there is no gap 
between the shutting down of the Space Shuttle and the 
beginning of the CEV. And then it goes, because we negotiated 
with this with you, to give you wiggle room with certain 
reports to the Congress.
    So, I want to go back to the fact that we stated, earlier, 
that this budget request that you are making, which, in 
essence, is OMB on your top line, or your bottom line, 
whichever way you look at it, is $1.1 billion less than the 
amount that is authorized. So, if the Congress's decision, 
since we are the funders, is that we appropriate the same 
amount that NASA is authorized for in the 2007 fiscal year, 
then it gives you new opportunities to do some things, maybe 
some in aeronautics, as you said, but you've got this report 
that's going on that won't be ready until December, where maybe 
you can work something out with the FAA and DOD. But clearly 
another billion-plus would give you an opportunity of speeding 
up the development of the CEV. Is that correct?
    Dr. Griffin. Well, yes, sir, of course. Yes, sir.
    Senator Bill Nelson. Speeding it up by 4 years?
    Dr. Griffin. Sir, I don't believe that we can have a CEV by 
2010, no matter what we do. We are technology-limited to the 
2011-2012 timeframe. We're funding-limited for later dates than 
that. I mean, I've been in this business 35 years, short of a 
national priority crash program, which I think no one is 
suggesting, I do not believe that it would be operationally 
possible to have a working CEV/CLV combination sooner than 2011 
or 2012. I'm in the awkward position that you know that I also 
believe that we should not have a significant gap in human 
spaceflight; and yet, our Nation has many priorities, and I 
defend the President's budget. And so, within the context of 
that budget, I am doing everything I can to get the CEV for 
us--not for you, for us--as early as it can be done.
    Senator Bill Nelson. Clearly, an additional billion dollars 
from your request would give you some additional working room 
with regard to science.
    Dr. Griffin. Well, again, in the President's budget we 
believe that we have struck a good balance between the demands 
and the needs of science programs and the human spaceflight 
programs and aeronautics. There are science programs that we 
are having to defer that we would like to do sooner. There are 
some smaller programs that we will just outright cut. In the 
administration, we believe that we have captured the essence of 
the NASA science program without damage and that, as the CEV is 
being delayed a bit, so, too, it is fair to ask that some of 
the science programs be delayed a bit in order that everybody 
bears some of the consequences for hard choices, but no one 
bears them all.
    Senator Bill Nelson. Where do you see us going with China, 
competitor or colleague?
    Dr. Griffin. This is my opinion, I think the details of 
this should be requested of the State Department rather than 
me.
    Senator Bill Nelson. No, I'm talking about the space 
program.
    Dr. Griffin. In the space program, I would offer the 
following. China is, as we are, a great nation. They are not in 
consonance with us on many things that we would like them to be 
more closely aligned, and some of those issues were discussed 
at last week's summit. The Chinese have offered an opportunity 
for me to visit with them and discuss the beginnings of 
cooperation between us and them in space. I think the United 
States always benefits from discussions. I do not see how it 
can hurt us. I am pleased to accept that invitation. The 
President has advised me that he wishes me to accept that 
invitation. I look forward to it.
    The United States needs good competitors, and it needs good 
partners. And sometimes they can both be the same. So, I can't, 
at this point, hazard a guess as to what our relationship in 
the long-term would be. I will say, 20 years ago who would have 
imagined that one of our best partners on the Space Station 
today is Russia? So, I think it is in our interest to behave 
always as if cooperation is a possible thing. And I believe 
that that's what we're doing.
    Senator Bill Nelson. Although we saw the beginnings of that 
in Apollo/Soyuz in 1976, even though we were two superpowers in 
a Cold War, they were the seeds of what were sown----
    Dr. Griffin. That's correct.
    Senator Bill Nelson.--at that point. So, you've got to 
start sowing those seeds. So, I would encourage you to have 
those discussions.
    Dr. Griffin. And I believe the President would share your 
view, which is why he has requested me to make this trip.
    Senator Bill Nelson. Down the line, China may understand, 
even though they want the prestige of their own space program, 
that cooperating with the United States, and the rest of the 
world, indeed, on the Space Station might clearly be to their 
advantage. So, I will be interested to hear how those talks 
proceed.
    Let me ask you just one final question. For our Committee, 
would you bring us up to date on the mandate that you have laid 
down in NASA with regard to openness of scientific opinion?
    Dr. Griffin. Of course, sir. I did recently release a 
policy, which I believe I--do we have a copy of that we could 
submit for the record? Yes, we have brought a copy. We'd be 
happy to submit that for the record.
    [The information referred to follows:]

NASA Policy on the Release of Information to News and Information Media
Scope
    This directive sets forth policy governing the release of public 
information, which is defined as information in any form provided to 
news and information media, especially information that has the 
potential to generate significant media, or public interest or inquiry. 
Examples include, but are not limited to, press releases, media 
advisories, news features, and web postings. Not included under this 
definition are scientific and technical reports, web postings designed 
for technical or scientific interchange, and technical information 
presented at professional meetings or in professional journals.
Applicability
    (a) This policy applies to NASA Headquarters, NASA Centers, and 
Component Facilities.
    (b) In the event of any conflict between this policy and any other 
NASA policy, directive, or regulation, this policy shall govern and 
supersede any previous issuance or directive.
Principles
    (a) NASA, a scientific and technical agency, is committed to a 
culture of openness with the media and public that values the free 
exchange of ideas, data, and information as part of scientific and 
technical inquiry. Scientific and technical information from or about 
Agency programs and projects will be accurate and unfiltered.
    (b) Consistent with NASA statutory responsibility, NASA will 
``provide for the widest practicable and appropriate dissemination of 
information concerning its activities and the results thereof.'' 
Release of public information concerning NASA activities and the 
results of NASA activities will be made promptly, factually, and 
completely.
    (c) To ensure timely release of information, NASA will endeavor to 
ensure cooperation and coordination among the Agency's scientific, 
engineering, and public affairs communities.
    (d) In keeping with the desire for a culture of openness, NASA 
employees may, consistent with this policy, speak to the press and the 
public about their work.
    (e) This policy does not authorize or require disclosure of 
information that is exempt from disclosure under the Freedom of 
Information Act (5 U.S.C. Sec. 552) or otherwise restricted by statute, 
regulation, Executive Order, or other executive branch policy or NASA 
policy (e.g., OMB Circulars, NASA Policy Directives). Examples of 
information not releasable under this policy include, without 
limitation, information that is, or is marked as, classified 
information, procurement sensitive information, information subject to 
the Privacy Act, other sensitive but unclassified information, and 
information subject to privilege, such as predecisional information or 
attorney-client communications.
Responsibilities
    (a) The Assistant Administrator for Public Affairs is responsible 
for developing and administering an integrated Agency-wide 
communications program, establishing Agency public affairs policies and 
priorities, and coordinating and reviewing the performance of all 
Agency public affairs activities. The Assistant Administrator will 
develop criteria to identify which news releases and other types of 
public information will be issued nationwide by NASA Headquarters. 
Decisions to release public information nationwide by NASA Headquarters 
will be made by the Assistant Administrator for Public Affairs or his/
her designee.
    (b) NASA's Mission Directorate Associate Administrators and Mission 
Support Office heads have ultimate responsibility for the technical, 
scientific, and programmatic accuracy of all information that is 
related to their respective programs and released by NASA.
    (c) Under the direction of the Assistant Administrator for Public 
Affairs, public affairs officers assigned to Mission Directorates are 
responsible for the timely and efficient coordination of public 
information covering their respective programs. This coordination 
includes review by appropriate Mission Directorate officials. It also 
includes editing by public affairs staff to ensure that public 
information products are well written and appropriate for the intended 
audience. However, such editing shall not change scientific or 
technical data, or the meaning of programmatic content.
    (d) Center Public Affairs Directors are responsible for 
implementing their portion of the Agency's communications program, 
adhering to Agency policies, procedures, and priorities, and 
coordinating their activities with Headquarters (and others where 
appropriate). They are responsible for the quality of public 
information prepared by Center public affairs officers. They also are 
responsible for the day-to-day production of public information 
covering their respective Center activities, which includes obtaining 
the necessary Center concurrences and coordinating, as necessary, with 
the appropriate Headquarters public affairs officers.
    (e) Center Directors have ultimate responsibility for the accuracy 
of public information that does not require the concurrence of 
Headquarters. (See ``Public information coordination and concurrence,'' 
section (d).)
    (f) All NASA employees are required to coordinate, in a timely 
manner, with the appropriate public affairs officers prior to releasing 
information that has the potential to generate significant media, or 
public interest or inquiry.
    (g) All NASA public affairs officers are required to notify the 
appropriate Headquarters public affairs officers in a timely manner 
about activities or events that have the potential to generate 
significant media or public interest or inquiry.
    (h) All NASA public affairs employees are expected to adhere to the 
following code of conduct:

        (1) Be honest and accurate in all communications.

        (2) Honor publication embargoes.

        (3) Respond promptly to media requests and respect media 
        deadlines.

        (4) Act promptly to correct mistakes or erroneous information, 
        either internally or externally.

        (5) Promote the free flow of scientific and technical 
        information.

        (6) Protect non-public information.

    (i) All NASA employees are responsible for adhering to plans 
(including schedules) for activities established by public affairs 
offices and senior management for the coordinated release of public 
information.
    (j) All NASA-funded missions will have a public affairs plan, 
approved by the Assistant Administrator for Public Affairs, which will 
be managed by Headquarters and/or a designated NASA Center.
    (k) Public affairs activities for NASA-funded missions will not be 
managed by non-NASA institutions, unless authorized by the Assistant 
Administrator for Public Affairs.
    (l) The requirements of this directive do not apply to the Office 
of Inspector General regarding its activities.
Public Information Coordination and Concurrence
    (a) General. All NASA employees involved in preparing and issuing 
NASA public information are responsible for proper coordination among 
Headquarters, Center, and Mission Directorate offices to include review 
and clearance by appropriate officials prior to issuance. Such 
coordination will be accomplished through procedures developed and 
published by the NASA Assistant Administrator for Public Affairs.
    (b) Coordination. To ensure timely release of public information, 
Headquarters and Center public affairs officers are required to 
coordinate to obtain review and clearance by appropriate officials, 
keep each other informed of changes, delays, or cancellation of 
releases, and provide advance notification of the actual release.
    (c) All public information shall be coordinated through the 
appropriate Headquarters offices, including review by the appropriate 
Mission Directorate Associate Administrator and mission support office 
head, or their designees, to ensure scientific, technical, and 
programmatic accuracy, and review by the Assistant Administrator of 
Public Affairs or his/her designee to ensure that public information 
products are well written and appropriate for the intended audience.
    (d) Centers may, however, without the full coordination of 
Headquarters, issue public information that is institutional in nature, 
of local interest, or has been deemed not to be a Headquarters release. 
(The Assistant Administrator for Public Affairs or his/her designee 
will determine which public information will be issued nationwide by 
NASA Headquarters.) These releases must be coordinated through the 
appropriate Center offices and approved by the Center Director and 
Center Public Affairs Director. The Center Public Affairs Director is 
required to provide proper notification to the NASA Office of Public 
Affairs, Headquarters, prior to release. (The Assistant Administrator 
for Public Affairs shall publish guidelines for the release of public 
information that may be issued by Centers without clearance from 
Headquarters' offices.)
    (e) Dispute Resolution. Any dispute arising from a decision to 
proceed or not proceed with the issuance of a news release or other 
type of public information will be addressed and resolved by the 
Assistant Administrator for Public Affairs with the appropriate Mission 
Directorate Associate Administrator, mission support office head, 
Center Director, and others, such as Center Public Affairs Directors, 
as necessary. However, the appropriate Mission Directorate Associate 
Administrator shall be the arbiter of disputes about the accuracy or 
characterization of programmatic, technical, or scientific information. 
Additional appeals may be made to the Chief of Strategic Communications 
and to the Office of the Administrator. When requested by a Center 
Public Affairs Director, an explanation of the resolution will be 
provided in writing to all interested Agency parties.
Interviews
    (a) Only spokespersons designated by the Assistant Administrator 
for Public Affairs, or his/her designee, are authorized to speak for 
the Agency in an official capacity regarding NASA policy, programmatic, 
and budget issues.
    (b) In response to media interview requests, NASA will offer 
articulate and knowledgeable spokespersons who can best serve the needs 
of the media and the American public. However, journalists may have 
access to the NASA officials they seek to interview, provided those 
NASA officials agree to be interviewed.
    (c) NASA employees may speak to the media and the public about 
their work. When doing so, employees shall notify their immediate 
supervisor and coordinate with their public affairs office in advance 
of interviews whenever possible, or immediately thereafter, and are 
encouraged, to the maximum extent practicable, to have a public affairs 
officer present during interviews. If public affairs officers are 
present, their role will be to attest to the content of the interview, 
support the interviewee, and provide post-interview follow-up with the 
media as necessary.
    (d) NASA, as an Agency, does not take a position on any scientific 
conclusions. That is the role of the broad scientific community and the 
nature of the scientific process. NASA scientists may draw conclusions 
and may, consistent with this policy, communicate those conclusions to 
the media. However, NASA employees who present personal views outside 
their official area of expertise or responsibility must make clear that 
they are presenting their individual views--not the views of the 
Agency--and ask that they be sourced as such.
    (e) Appropriated funds may only be used to support Agency missions 
and objectives consistent with legislative or Presidential direction. 
Government funds shall not be used for media interviews or other 
communication activities that go beyond the scope of Agency 
responsibilities and/or an employee's official area of expertise or 
responsibility.
    (f) Media interviews will be ``on-the-record'' and attributable to 
the person making the remarks, unless authorized to do otherwise by the 
Assistant Administrator for Public Affairs or Center Public Affairs 
Director, or their designees. Any NASA employee providing material to 
the press will identify himself/herself as the source.
    (g) Audio recordings may be made by NASA with consent of the 
interviewee.
    (h) NASA employees are not required to speak to the media.
    (i) Public information volunteered by a NASA official will not be 
considered exclusive to any one media source and will be made available 
to other sources, if requested.
Preventing Release of Classified Information to the Media
    (a) Release of classified information in any form (e.g., documents, 
through interviews, audio/visual, etc.) to the news media is 
prohibited. The disclosure of classified information to unauthorized 
individuals may be cause for prosecution and/or disciplinary action 
against the NASA employee involved. Ignorance of NASA policy and 
procedures regarding classified information does not release a NASA 
employee from responsibility for preventing any unauthorized release. 
See NPR 1600.1, Chapter 5, Section 5.23 for internal NASA guidance on 
management of classified information. For further guidance that applies 
to all agencies, see Executive Order 12958, as amended, ``Classified 
National Security Information'' and its implementing directive at 32 
CFR Parts 2001 and 2004.
    (b) Any attempt by news media representatives to obtain classified 
information will be reported through the Headquarters Office of Public 
Affairs or Installation Public Affairs Office to the Installation 
Security Office and Office of Security and Program Protection.
    (c) For classified operations and/or programs managed under the 
auspices of a DD Form 254, ``Contract Security Classification 
Specification,'' all inquiries concerning this activity will be 
responded to by the appropriate PAO official designated in Item 12 on 
the DD Form 254.
    (d) For classified operations and/or information owned by other 
government agencies (e.g., DOD, DOE, etc.), all inquiries will be 
referred to the appropriate Agency public affairs officer as 
established in written agreements.
Preventing Unauthorized Release of Sensitive But Unclassified (SBU) 
        Information/Material to the News Media
    (a) All NASA SBU information requires accountability and approval 
for release. Release of SBU information to unauthorized personnel is 
prohibited. Unauthorized release of SBU information may result in 
prosecution and/or disciplinary action. Ignorance of NASA policy and 
procedures regarding SBU information does not release a NASA employee 
from responsibility for unauthorized release. See NPR 1600.1, Chapter 
5, Section 5.24 for guidance on identification, marking, accountability 
and release of NASA SBU information.
    (b) Examples of SBU information include: proprietary information of 
others provided to NASA under nondisclosure or confidentiality 
agreement; source selection and bid and proposal information; 
information subject to export control under the International Traffic 
in Arms Regulations (ITAR) or the Export Administration Regulations 
(EAR); information subject to the Privacy Act of 1974; predecisional 
materials such as national space policy not yet publicly released; 
pending reorganization plans or sensitive travel itineraries; and 
information that could constitute an indicator of U.S. Government 
intentions, capabilities, operations, or activities or otherwise 
threaten operations security.
    (c) Upon request for access to information/material deemed SBU, 
coordination must be made with the information/material owner to 
determine if the information/material may be released. Other 
organizations that play a part in SBU information identification, 
accountability and release (e.g., General Counsel, External Relations, 
Procurement, etc.) must be consulted for assistance and/or concurrence 
prior to release.
    (d) Requests for SBU information from other government agencies 
must be referred to the respective Agency public affairs officer.
Multimedia Materials
    (a) NASA's multimedia material, from all sources, will be made 
available to the information media, the public, and to all Agency 
Centers and contractor installations utilizing contemporary delivery 
methods and emerging digital technology.
    (b) Centers will provide the media, the public, and as necessary, 
NASA Headquarters with:

        (1) Selected prints and original or duplicate files of news-
        oriented imagery and other digital multimedia material 
        generated within their respective areas.

        (2) Selected video material in the highest quality format 
        practical, which, in the opinion of the installations, would be 
        appropriate for use as news feed material or features in pre-
        produced programs and other presentations.

        (3) Audio and/or video files of significant news developments 
        and other events of historic or public interest.

        (4) Interactive multimedia features that can be incorporated 
        into the Agency's Internet portal for use by internal and 
        external audiences, including the media and the general public.

News Releases Concerning International Activities
    (a) Releases of information involving NASA activities, views, 
programs, or projects involving another country or an international 
organization require prior coordination and approval by the 
Headquarters offices of External Relations and Public Affairs.
    (b) NASA Centers and Headquarters offices will report all visits 
proposed by representatives of foreign news media to the public affairs 
officer for the Office of External Relations for appropriate handling 
consistent with all NASA policies and procedures.

    Dr. Griffin. But the broad outlines of the policy are 
really--frankly, we found that the earlier policy was a bit 
confused. It had been on the books for quite some length of 
time. It was not even clear to my deputy, who happens to be an 
attorney. And it wasn't clear to her, then I felt I had no 
hope. So, we've clarified it.
    The core points of the policy are that NASA employees are, 
of course, free to communicate their scientific and technical 
and engineering results as they see fit. As in the recent case 
of record in The New York Times, they may discuss policy 
issues, but they must label their discussion of policy issues 
as their own opinion, and not the agency's opinion, because 
executive agencies do not engage in policy debates. I do not do 
that, and they may not, as well. We will not tolerate any 
altering of scientific communications for someone's notion of 
political correctness. That will not be done. Scientists or 
engineers who are requested to be interviewed by news media may 
accept the request, or they may decline; they're not forced to 
do an interview that they do not wish to do, but they may do 
one, if they choose. Because relationships with the news media 
are an art form of a particular nature, we recommend that they 
do such interviews with representatives of NASA Public Affairs. 
But we do not require it.
    I think those are the broad outlines of the policy. It's 
one of the absolute maximum in openness, with that as my 
clearly expressed intent. There is an adjudication mechanism 
for disputes. I think you will appreciate that not every 
scientist who wishes to issue a press release concerning his 
work necessarily need be accommodated by the agency, but there 
is an adjudication mechanism.
    Senator Bill Nelson. Is it possible for an old-fashioned 
July 4th celebration with the launch of the Space Shuttle?
    Dr. Griffin. That could occur, sir. The opening of the 
window is July 1, and we're trying for the opening of the 
window. So, let's hope that we're in flight to celebrate on 
July 4th with a clean, successful Shuttle flight.
    Senator Bill Nelson. Godspeed.
    Dr. Griffin. Thank you, sir.
    Senator Hutchison. I'll be there.
    Dr. Griffin. I would hope that both of you could be there. 
I will be there.
    Senator Bill Nelson. We will.
    Senator Hutchison. We will. Thank you very much. We 
appreciate very much your coming. I'm very pleased with the 
progress you're making, and look forward to many more months of 
that kind of progress.
    Thank you.
    Dr. Griffin. Well, Senator Hutchison and Senator Nelson you 
are, of course, key members of my oversight committee, but you 
are also among the strongest allies that I have in this body, 
and I appreciate your support.
    Thank you.
    Senator Hutchison. Thank you very much.
    Our meeting is adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]


                            A P P E N D I X

Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                      Hon. Dr. Michael D. Griffin
Budget
    Question 1. As you know, there are concerns about both the 
distribution of funds within the current NASA budget request for Fiscal 
Year 2007, and the fact that the total is dramatically less than the 
amount authorized. Regarding the outyear funding levels for Fiscal Year 
2008 and beyond, are there areas of the budget that you believe should 
be given particular attention in those outyears?
    Answer. The five-year budget plan included in the President's 
Fiscal Year 2007 budget request for NASA provides the level of funding 
necessary to meet the priorities of both the President and the 
Congress. Outyear funding levels are essential to all areas of NASA, 
and we carefully sought to balance our budget request not just in 
Fiscal Year 2007 but in the outyears as well. We must maintain that 
necessary balance by maintaining the proposed funding levels for all of 
NASA's mission directorates.

    Question 2. Are you concerned that the many difficult choices you 
have had to make within the current funding levels and in the proposed 
Fiscal Year 2007 funding profile will erode important elements of the 
scientific and political constituency that is so important to sustain 
the public commitment to space exploration? If so, what is your message 
to those constituencies that are expressing their unhappiness with the 
budget choices?
    Answer. With limited resources, NASA made some difficult decisions. 
Leadership means setting priorities of time, energy, and resources, and 
NASA has tried to make these decisions with the best available facts 
and analysis. The plain fact is that NASA simply cannot afford to do 
everything that our many constituencies would like the Agency to do. We 
must set priorities, and we must adjust our spending to match those 
priorities.
    NASA needed to reallocate budgeted funds from the Science and 
Exploration budget projections for Fiscal Year 2007-2011 in order to 
ensure that enough funds were available to properly support the Space 
Shuttle and the ISS, while avoiding delays in development of the Crew 
Exploration Vehicle (CEV) that could increase risk and overall costs 
and lead to even more delays in pursuing the Nation's vision. Such 
delays in the CEV are strategically more damaging to our Nation's space 
program than delays to affected science missions. Furthermore, NASA 
cannot afford the costs of starting some new science missions at this 
time. It is important to know that NASA is simply delaying missions, 
not abandoning them.
    NASA will work closely with our stakeholders in Congress and the 
scientific community to make sure they understand our rationale. Some 
of our stakeholders will not agree with our position, but it is 
important for everyone to understand the rationale.
Crew Exploration Vehicle (CEV)
    Question 3. The Subcommittee is aware of trade studies and other 
assessments going on which might alter the requirements and 
specifications for the Crew Exploration Vehicle, as well as the Crew 
Launch Vehicle. Can you describe the status of those studies, and their 
possible impact on the procurement process for the CEV?
    Answer. NASA continues to refine our initial system architecture 
based on the Exploration Systems Architecture Study (ESAS) to provide 
the highest probability for cost and performance effectiveness. The 
ESAS was the first in a series of design cycles. We have completed 
additional design cycles focusing on further trade assessments. At the 
conclusion of each design cycle, multiple studies are evaluated and 
result in modifications to our current design. The overall results of 
these design iterations have been incorporated into the Constellation 
system requirements and subsequently down into CEV Request for 
Proposals (RFP) released last January.
    NASA has received and is now evaluating these proposals for a 
selection in September of this year. The two contractors selected under 
Phase I of this procurement are continuing to refine their design 
concepts. Contract actions on long-lead hardware for Crew Launch 
Vehicle (CLV) components, such as the first stage and the upperstage 
engine (J-2X), are in progress. In addition, we still plan to release 
an RFP for an upperstage production partner early in CY 2007. We also 
will continue to iterate on, and refine, the CEV/CLV design; and the 
final requirements will be baselined at System Requirements Review 
(SRR), later this summer. The refinement of the design concepts, cost, 
and schedule estimates will continue through the formulation phase of 
the projects, and will be baselined in the same timeframe as the 
Preliminary Design Review (PDR) in the Fall of 2008.

    Question 4. Last year, and in subsequent statements, you have 
indicated that the key ingredient for accelerating development of the 
CEV, within the architecture you have adopted, is funding. Is that 
still your view, or are you seeing more technical challenges arise as 
you move closer to identifying actual design requirements?
    Answer. Constellation Systems has identified several challenges, 
both technical and programmatic, to the successful implementation of 
the Vision and currently is working mitigation strategies. As the 
architecture and program proceed through formulation, we expect these 
mitigation strategies to be developed more fully.
    Within the CEV and CLV programs, the primary technical challenge to 
supporting potential CEV launch dates earlier than 2014, according to 
our Risk Management Plan, is developing and integrating of the upper-
stage engine. The J-2X engine development is well underway, but there 
are technical challenges in the design, fabrication, and test of the 
modifications of this engine. These challenges can be overcome with a 
disciplined and aggressive engine development effort that focuses on 
rigorous testing. While development of the J-2X is a challenge, the 
derivative J-2S engine has a long heritage at NASA. The J-2S was 
scheduled to fly on later Apollo missions before the Moon program was 
canceled, and the more recent X-33 had been successfully testing an 
engine based on the J-2S powerpack (turbo machine, gas generator, etc).
    Our primary funding challenge is ensuring that we receive the 
President's Budget request for Constellation. Any reductions in funding 
could cause substantial schedule delays. Retaining our year-to-year 
carryover intact in order to ameliorate the non-optimal phasing will be 
key to our strategy to maximize the probability of program success. We 
believe that we can reach the milestone of launching the CEV by 2014. 
We face a schedule challenge in attempting to launch the CEV before 
2014.
    It is difficult to say which is the greater challenge--technical 
performance or cost. Each one has a direct correlation with the other. 
All things considered, the cost profile remains the greater issue for 
the program. Currently, we are including funding for long lead and 
critical path items to protect options for a launch before 2014.

    Question 5. What is your best estimate today, based on available 
resources now and those you can expect over the next 5 years, for 
initial operations of the CEV?
    Answer. The requirements that drive the architecture will be 
baselined at a System Requirements Review, later this summer. Part of 
the analysis of these requirements will include an assessment as to 
whether these changes in design will affect the schedule. Until then, 
we continue to support the first flight of CEV as early as possible, 
but no later than 2014.
Commercial Orbital Transportation Services (COTS) Demonstration 
        Program
    Question 6. The NASA Authorization Act endorses and encourages the 
private sector involvement in space station crew and cargo support. 
Among steps being taken to enable that involvement is the Commercial 
Orbital Transportation Services (COTS) demonstration program. Can you 
provide the Subcommittee with the status of this program, the basis 
used for selection of competitors, and the planned level of funding 
through 2010 for this program?
    Answer. NASA appreciates the substantial capabilities that exist in 
the commercial space sector and the extent to which such capabilities 
augment NASA's own unique competencies. On January 18, 2006, NASA 
released the Space Act Announcement for Phase I of the Commercial Crew/
Cargo Project. The announcement solicited proposals from industry for 
Earth-to-orbit spaceflight demonstrations of the following 
capabilities:

  <bullet> Capability A: External cargo delivery and disposal,
  <bullet> Capability B: Internal cargo delivery and disposal,
  <bullet> Capability C: Internal cargo delivery, and
  <bullet> Capability D: Crew transportation.

    Participants were encouraged to propose a system solution targeting 
any of the capabilities individually or propose a system that satisfies 
multiple capabilities. NASA will evaluate the participants' proposal as 
it relates to their business plan, technical approach, and financial 
proposal as part of a tradeoff analysis. The purpose of this tradeoff 
analysis is to select a portfolio of approaches that best meets the 
objectives of the COTS program. Many companies have expressed interest 
in the Commercial Crew/Cargo Project, and we are diligently reviewing 
the proposals in accordance with NASA's evaluation criteria.
    In late August, NASA hopes to enter into funded Space Act 
Agreements with one or more U.S. companies to develop and demonstrate 
the vehicles, systems, and operations to support transportation for a 
human space facility like the International Space Station (ISS). The 
budget for this program totals $520 million through 2010.
    The COTS program, along with the Exploration Systems Mission 
Directorate (ESMD) Centennial Challenges Program, are ways that NASA is 
encouraging innovation in the private sector to help develop future 
space capabilities. Such programs, providing capabilities and 
technologies, will support U.S. competitiveness in the vital arena of 
space transportation.
Space Shuttle
    Question 7. As more time passes between the first and the second 
Return-to-Flight test flights, there is increasing concern about the 
ability to meet the flight rate needed to complete the International 
Space Station before the planned retirement of the Space Shuttle. What 
is your confidence level that it can be done?
    Answer. NASA currently is planning to fly sixteen Shuttle missions 
to complete the International Space Station prior to 2010, with one 
additional Hubble Servicing flight. Under this manifest, the flight 
rate will be 2, 4,5, 5, 1 for the next 5 years, beginning with the STS-
121 mission, planned to launch in July 2006. NASA engineers have worked 
diligently to address the foam liberation issues experienced on STS-
114, including removing the Protuberance Air Load (PAL) ramp, and the 
Agency is confident that this flight rate is achievable in a safe and 
successful manner. The Program can accommodate some additional delays 
and still complete ISS assembly prior to the Shuttle retirement in 
2010. Should any large-scale delay occur, NASA will confer with the 
International Partners on a joint course of action.

    Question 8. What is the status of plans, if any, to retire the 
Orbiter Atlantis, rather than put it through its scheduled major 
modifications procedure? When is that process scheduled to begin, how 
long would it be expected to take, and what are your current plans 
regarding it?
    Answer. Because Atlantis is in need of an Orbiter Major 
Modification (OMM) per Shuttle program requirements after its next five 
flights, and because that OMM would not be completed in sufficient time 
to be available for flight before September 30, 2010, NASA will remove 
Atlantis from the fleet in Fiscal Year 2008. At this time, no decision 
has been made as to the final disposition of Atlantis or any of the 
Space Shuttle orbiters. NASA's primary focus is ensuring that the Space 
Shuttle safely and successfully completes its mission--completing its 
role in assembly of the International Space Station (ISS) by the end of 
Fiscal Year 2010.

    Question 9. The mothballing of Atlantis would, of course, mean the 
availability of only two Orbiters for completion of the Shuttle 
manifest remaining at that time. How confident are you that it will be 
possible to complete that manifest under those circumstances?
    Answer. Currently, NASA is operating with the availability of two 
Orbiters--Discovery and Atlantis, while Endeavor is in the Orbiter 
Processing Facility for an OMM. The Agency is confident that manifest 
is achievable in a safe and successful manner with the use of two 
orbiters.

    Question 10. Your very valid usual answer when asked when the 
Shuttle will fly again is that ``we will fly when we are ready,'' 
meaning you do not want to be schedule-driven, but make launch 
decisions based on all steps necessary being completed. Why not apply 
the same reasoning to the question of when you will stop flying the 
space shuttle, and say, ``When it has fulfilled its mission.''
    Answer. The Vision for Space Exploration directed the retirement of 
the Space Shuttle by the end of Fiscal Year 2010. NASA will complete 
assembly of the International Space Station by 2010, at which point the 
Space Shuttle will be retired. The Agency is confident that assembly 
can be completed in the planned number of missions. NASA has a 
carefully planned flight manifest that provides for completion of ISS 
assembly in the sixteen Shuttle missions that will occur prior to 
Shuttle retirement in 2010. Any delay in Shuttle retirement would delay 
the introduction of the CEV as resources that would have been directed 
to exploration would need to be directed back to supporting the 
Shuttle.

    Question 11. The President's Vision directed the retirement of the 
Space Shuttle in 2010. But, he also said that the next step in the 
Vision is to complete the International Space Station. Does it make 
sense to say we will complete the Space Station, and then say we will 
stop flying the Shuttle in 2010, whether the space station is completed 
or not?
    Answer. The Agency is confident that assembly can be completed in 
the planned number of missions. NASA has a carefully planned flight 
manifest that provides for completion of ISS assembly in the sixteen 
Shuttle missions that will occur prior to Shuttle retirement in 2010. 
The Shuttle budget also is sufficient to support two contingency 
logistics Shuttle flights to the ISS in Fiscal Year 2010. If commercial 
services are not available, these could be flown to pre-position spares 
if the flights are deemed to be cost-effective and can be safely flown 
without jeopardizing the Shuttle's 2010 retirement date.
International Space Station
    Question 12. The current plan, as reflected in the budget request, 
is to fly sixteen missions to complete and outfit the International 
Space Station (ISS). That means that at least two logistics missions 
have been reduced, and perhaps more. Primarily, those missions were to 
have been used to fly Orbital Replacement Units (ORU's) to be attached 
to the Station as spares for major systems too large to be launched on 
expendable launch vehicles. Is that a correct statement? If so, can you 
describe what those ORU's are, what is their stage of development and 
related cost, and what options, if any, are being considered to 
eventually find a means of taking them to the Space Station?
    Answer. ISS spares were designed to be carried aboard the Space 
Shuttle. Other ISS cargo delivery vehicles are available for providing 
some spares to ISS; however, the Shuttle is the most capable of the 
delivery vehicles. Capability to modify the Japanese cargo transfer 
vehicle and critical spare flight support equipment to accommodate the 
critical spares is under assessment. The two contingency Shuttle 
flights are currently carried as placeholders for the delivery of 
utilization payloads and pre-positioned spares in the event that 
commercial services that can accommodate the spares are not available 
at the time of Shuttle retirement and if the flights are deemed to be 
cost-effective and can be safely flown without jeopardizing the 
Shuttle's 2010 retirement date. The need for these contingency flights 
will be continually assessed based on hardware failures and the sparing 
needs of ISS.
    The following represents some of the large spares that have 
completed development and are ready for launch: external heat rejection 
system pump module assemblies (PMA) (2 units), fluid hose rotary 
coupler (FHRC), and nitrogen tank assembly (NTA), the control moment 
gyroscope (CMG) for non-propulsive attitude control, the special 
purpose dexterous manipulator (SPDM/``Dextre'') spare arm, Mobile 
Transporter/Trailing Umbilical System Reel Assembly (MT/TUS RA), and 
linear drive unit (LDU) to support robotic maintenance, a large Space 
to Ground antenna (SGANT), a high pressure oxygen gas tank, 9 
electrical power components including 6 batteries.

    Question 13. What is the current status of the launch plans for the 
modules of our international partners to be delivered to the ISS? Are 
our partners satisfied with the current plans to meet our obligations 
to them regarding the ISS?
    Answer. The European Columbus Module is scheduled to be launched on 
the seventh Shuttle mission to the ISS after STS-121 (ULF1.1), and was 
recently delivered to the Space Station Processing Facility at Kennedy 
Space Center. The components of the Japanese Experiment Module (JEM) 
are currently planned to be launched on the eighth, ninth, and twelfth 
Shuttle missions. The Canadian built Special Purpose Dexterous 
Manipulator is planned to be launched on the eighth Shuttle mission. 
The Agency is in close contact with our international partners 
regarding overall assembly completion and the status of their modules, 
and they are satisfied with our current plans. The heads of the five 
partner space agencies met in March 2006 and endorsed this plan. We 
will continue this close cooperation through the life of the ISS.

    Question 14. Besides launching their modules to the ISS, what are 
our other commitments to our international partners with regard to ISS? 
(Operations, Research, Crew Time, etc.)
    Answer. Under the Memoranda of Understanding (MOUs) between NASA 
and each of the International Partners, each Partner will receive 
rights to operate experiments on the ISS and to provide astronauts to 
serve as Space Station crew. They receive or retain rights to space for 
their experiments, resources such as power and crew time to conduct 
their experiments, and rights to purchase a commensurate share of 
transportation and communications services to support their research. 
They also have obligations to bear the costs of developing, maintaining 
and (in the case of Russia's Multi-purpose Laboratory Module and 
Research Module) launching the elements and systems they provide and 
share in the ongoing operations costs of the ISS. NASA has, in addition 
to its generic partner obligations, special roles reflecting its lead 
partner status such as overall responsibilities for systems engineering 
and integration, management and safety and mission assurance. NASA also 
has specific obligations to provide assembly launches to other partners 
as detailed in the individual MOUs. One example is the obligation to 
launch the European and Japanese laboratories.

    Question 15. As you know, the Authorization bill we enacted into 
law requires that 15 percent of the total ISS research budget be 
allocated to research that is not directly related to the Vision for 
Exploration. The purpose for that is to keep, as much of the scientific 
expertise and experiment equipment available for a time when more 
research opportunities can be made available for those science 
disciplines, hopefully through the vehicle of the National Laboratory, 
which the bill also designated the ISS to be. Can you provide the 
Subcommittee with the status of NASA's response to that requirement?
    Answer. The 15 percent research selection pool included all 
fundamental, non-exploration research in HSRT prior to the ESAS 
research and technology review. Selection pool topics included but were 
not limited to animal and plant research, basic fluid physics, 
combustion research, cellular biotechnology, and cellular research. The 
primary focus was to maximize ISS research to the greatest extent 
possible, taking into account resource limitations such as upmass/
downmass and crew time. Free Flyer investigations will encourage 
multidiscipline research and promote international collaboration. 
Ground-based research will be selected to foster U.S. scientific 
expertise and research capability in microgravity research. All 
investigations have been or will be peer-reviewed.
    The 15 percent non-exploration allocation includes funding for 
renewals and extensions of grants in compliance with Congressional 
direction: Ground research, ISS research, Free Flyer research, and 
Multiuser User System Support (MUSS). Ground-based research includes 
fundamental grants ending in FY06, and any ground research supporting 
ISS flight and Free Flyer experiments.
    In the Free Flyer area, ESMD is continuing its collaboration with 
the Russians through completion of the FOTON M2 data review and future 
M3 mission. The FOTON M3 mission will include both life and physical 
science experiments. In addition, ESMD is strongly considering a 
domestic free flyer for life and physical science experiments, which 
may include commercial entities. This domestic free flyer activity is 
currently under formulation.
    To advance non-exploration research on ISS, NASA selected several 
payloads to fly on the STS-121 flight: TROPI plant biology experiment, 
FIT fruit fly immunology experiment, MICROBE, and POEMS microbiology 
experiments. In addition, other physical science experiments have been 
identified, but have not yet been manifested. It is anticipated that 
these physical science payloads will be manifested once the future 
Shuttle flight schedule is known.
    In addition, the MUSS will support the non-exploration payloads. 
Responsibilities of the MUSS include developing a manifest, integration 
of payloads and facility class racks, crew training, planning increment 
operations, testing payloads prior to flight, payload operations while 
on-orbit, and return of the payload to Earth.
Interagency Cooperation/Collaboration
    Question 16. The Subcommittee has stressed the importance of 
seeking and establishing new and expanded partnerships and cooperative 
relationships between NASA and other Federal agencies, such as the 
National Science Foundation, the Department of Energy, the National 
Institutes of Health, and the Department of Defense. Can you tell us 
the status of those efforts? Where do you believe you are likely to 
have the greatest success in achieving those relationships?
    Answer. NASA shares the view that collaboration with other Federal 
agencies can yield important benefits, and is committed to pursuing 
cooperation with other Federal agencies wherever it may be mutually 
beneficial. NASA already has well-established partnerships with a host 
of Federal agencies, including those highlighted, for a wide variety of 
activities including technology development, basic and applied 
research, and operational program support. NASA is continually seeking 
new opportunities to enhance its interagency relationships through a 
variety of mechanisms. In the case of the Department of Defense (DOD), 
the NASA Administrator meets on a regular basis with his DOD 
counterparts in the Space Partnership Council. This Council was 
established to explore and assess collaborative opportunities and 
activities to advance our Nation's civil and national security space 
objectives. Each of NASA's interagency partnerships helps the Agency to 
synergize scarce resources, avoid costly duplication of effort, and 
achieve in many cases much more than we could independently for the 
benefit of science, exploration, and our Nation.
International Cooperation
    Question 17. The Vision for Space Exploration underscores the 
importance of maintaining the U.S. commitment to our international 
partners in the ISS. It also clearly states, as does the NASA 
Authorization Act of 2005, that international cooperation should be an 
essential element of our future exploration activities. What steps are 
being taken now to pursue that cooperation? In what areas of future 
activity do you believe that is desirable, necessary, and possible?
    Answer. As directed by the President, NASA is pursuing 
opportunities for international participation in the Vision for Space 
Exploration. In addition to numerous bilateral and multilateral 
discussions about areas of potential mutual interest for cooperation on 
the Vision, NASA hosted two international workshops, in November 2004 
and March 2005, that included representatives from a number of 
international space agencies and focused on potential international 
participation in the Vision. In addition, in late April 2006, NASA 
hosted 13 international space agencies at a NASA-hosted Exploration 
Strategy Workshop in Washington. This four-day workshop was the first 
in a series of activities planned for 2006 focusing on defining a 
strategy for lunar exploration, including the role of the moon as a 
stepping stone to Mars and other destinations. A recent example of the 
tangible results from these discussions is the Memoranda of 
Understanding signed between NASA and the Indian Space Research 
Organization on May 9, 2006, for the flight of two NASA-provided 
instruments aboard India's planned lunar mission Chandrayaan-1 and 
ongoing discussions with Russia and Japan regarding cooperation on 
upcoming lunar missions.
    NASA has indicated to its international partners that it has 
limited interest in international involvement in NASA's ongoing 
development of a new U.S. capability for assured access to space. NASA 
has indicated, however, that it is very interested in potential 
discussions on cooperation in areas such as: habitats, rovers, power 
and logistics, science and in-situ resource utilization equipment, data 
sharing and communications, lunar robotic pre-cursor missions, and 
enhanced ISS re-supply. NASA has also indicated that it is prepared to 
discuss other areas of interest on a case-by-case basis.

    Question 18. From your past work in defense-related activities, you 
are familiar with the notion of ``linkage'' in our relations with 
foreign governments. It seems obvious that many nations will, in part, 
base their decisions on future cooperation with the U.S. on their 
experience with regard to past and current commitments. Two current 
projects in which the U.S. has made international commitments are 
currently being reviewed and there appears to be some chance that the 
U.S. may back away from its commitments, which would leave a number of 
international participants in those projects in a difficult position. 
These are the SOFIA project, the Stratospheric Observatory for Infrared 
Astronomy, in which the German Aerospace Center is heavily involved, 
and the AMS, or Alpha Magnetic Spectrometer, in which 16 other nations 
are participating. Can you discuss these two projects and the degree to 
which international commitments should be a factor in decisions 
regarding their future?
    Answer. SOFIA is a cooperative project conducted by NASA and the 
German Aerospace Center (DLR) to develop an airborne observatory. The 
AMS program is a Department of Energy-led collaborative initiative 
composed of a 16-nation international science team for development of 
the AMS experiment. NASA's role in this program, through DOE, was to 
provide integration and launch of the AMS experiment to ISS. For both 
of these projects, and for any effort involving international 
agreements, commitments to our partners are one of many factors that 
are considered when NASA makes programmatic decisions. The degree to 
which these commitments are weighed relative to other considerations, 
such as cost, schedule, technical, and safety factors, depends upon the 
specific project and the issues it faces. In the case of SOFIA, the 
NASA and DLR collaboration is formalized under a Memorandum of 
Understanding (MOU). NASA, with participation from DLR, recently 
completed a review of the SOFIA project due to continuing cost overruns 
and schedule delays. With DLR's participation, NASA has recently 
established a technically viable plan to proceed with the development 
of the SOFIA aircraft, subject to the identification of appropriate 
funding offsets. NASA's participation in the AMS program had been 
accomplished though an MOU between NASA and DOE that expired in 
September 2005. Under that MOU, DOE was responsible for all of the 
international aspects associated with the AMS program's implementation. 
Although NASA's MOU with DOE has expired, NASA has indicted to DOE that 
it will continue to explore potential alternatives to launch of the AMS 
program, subject to an assessment by the National Academy of Sciences 
of relative priorities for astronomy and physics missions not yet 
confirmed for flight.

    Question 19. You have been invited to visit China and meet with 
their space program officials, and have indicated your interest and 
willingness in doing that. Can you describe what your objectives would 
be in such a visit? Do you have a sense of where there might be 
potential for cooperation with China in the Vision for Exploration or 
in other areas of NASA activity?
    Answer. The NASA Administrator has accepted an invitation from the 
China National Space Administration (CNSA) to visit China. The 
Administrator is looking forward to the trip to get acquainted with 
colleagues in China and to better understand Chinese civil space 
interests and capabilities. Specific areas of interest to NASA include 
Earth science and lunar exploration, particularly potential sharing of 
data from robotic missions.
American Competitiveness Initiative (ACI) and Science, Technology, 
        Engineering and Mathematics Excellence (STEM)
    Question 20. As you know, NASA has always been in the forefront of 
this Nation's advancement in technology. The President did not include 
NASA in the focused effort of the American Competitiveness Initiative, 
but Dr. Marburger has made it clear that does not reflect in any way a 
belief that NASA no longer plays an important role in enhancing our 
Nation's competitiveness. Can you describe ways in which you believe 
NASA will continue to make contributions to innovation and 
competitiveness now and in the future?
    Answer. Since its inception, NASA has served as a pioneer to the 
expansion of technological and medical breakthroughs, scientific 
research, and commercial development of space. NASA expects to remain 
on the forefront of innovation and competitiveness enhancements as we 
develop and launch new, innovative missions to the Moon and beyond as 
part of the Nation's Vision for Space Exploration. This will be 
primarily accomplished by continuing to engage industry and academia 
through a myriad of research and educational opportunities.
    Through its Innovative Partnerships Program, NASA licenses 
technologies to U.S. firms for commercial application and quality-of-
life benefits. NASA's Innovative Partnerships Program also facilitates 
dual-use technology development partnering with U.S. industry for the 
purposes of producing technology for NASA mission use at less cost to 
NASA. In the process, U.S. partner entities benefit from the joint 
development of cutting-edge technology having strong likelihood of 
commercial application. NASA's Innovative Partnerships Program thereby 
further serves to strengthen U.S. industry's competitive position in 
international markets.
    Also located within NASA's Innovative Partnerships Program are the 
Small Business Innovation Research (SBIR) and Small Business Technology 
Transfer (STTR) program elements, which have the primary purpose of 
providing the U.S. high technology small business sector with an 
opportunity to provide innovative technology for NASA's missions. 
Accordingly, the Innovative Partnerships Program is serving to produce 
technology that improves U.S. industry's competitive position now and 
into the future.
    Additionally, NASA is a key participant in the Federal High 
Performance Computing and Communications (HPCC) Program. As a key 
participant of the Federal Program, the primary purpose of NASA's HPCC 
Program is to extend U.S. technological leadership in high-performance 
computing and communications for the benefit of NASA stakeholders: the 
U.S. aeronautics, Earth and space sciences, and spaceborne research 
communities. As international competition intensifies and as scientists 
push back the frontiers of knowledge, leading-edge computational 
science is more important than ever.
    The NASA Program is structured to contribute to broad Federal 
efforts while addressing agency-specific computational problems called 
Grand Challenges. NASA provides resources to develop tools to solve 
Grand Challenges in four HPCC project areas; the NASA Research and 
Education Network (NREN) supports the four projects. NASA will also 
continue the Agency's tradition of investing in the Nation's education 
programs and supporting the country's educators who play a key role in 
preparing, inspiring, exciting, encouraging, and nurturing the young 
minds of today who will manage and lead the Nation's laboratories and 
research centers of tomorrow.
    In 2006 and beyond, NASA will continue to pursue three major 
education goals, which will continue to make contributions to 
innovation and competitiveness now and in the future:

  <bullet> Strengthen NASA and the Nation's future workforce--NASA will 
        identify and develop the critical skills and capabilities 
        needed to achieve the Vision for Space Exploration. To help 
        meet this demand, NASA will continue contributing to the 
        development of the Nation's science, technology, engineering, 
        and mathematics (STEM) workforce of the future through a 
        diverse portfolio of education initiatives that target 
        America's students at all levels, especially those in 
        traditionally underserved and underrepresented communities.

  <bullet> Attract and retain students in STEM disciplines--To compete 
        effectively for the minds, imaginations, and career ambitions 
        of America's young people, NASA will focus on engaging and 
        retaining students in STEM education programs to encourage 
        their pursuit of educational disciplines critical to NASA's 
        future engineering, scientific, and technical missions.

  <bullet> Engage Americans in NASA's mission--NASA will build 
        strategic partnerships and linkages between STEM formal and 
        informal education providers. Through hands-on, interactive, 
        educational activities, NASA will engage students, educators, 
        families, the general public, and all Agency stakeholders to 
        increase Americans' science and technology literacy.

    NASA's Aeronautics Program has recently been restructured with the 
aim of providing long-term stability and focus on high-quality, 
innovative research that produces ideas, capabilities, and technologies 
that are critical enablers for the Nation's long-term technological 
leadership. Toward this end, the Aeronautics Program has been refocused 
away from evolutionary research and technology development and toward 
more revolutionary research that will answer fundamental aeronautics 
questions that will benefit the broad aeronautics community in 
academia, industry, and government. The technologies developed by NASA 
under this strategy will help to secure the U.S. leadership role in 
global aviation and greatly enhance U.S. competitiveness in the future.
    NASA's ESMD also promotes innovation and competitiveness. A major 
step in spurring the development of a space economy is already underway 
through the establishment of NASA's Commercial Crew and Cargo program. 
The objectives of the Commercial Crew and Cargo program are as follows:

  <bullet> Implement U.S. space exploration policy with an investment 
        to stimulate commercial enterprises in space.

  <bullet> Facilitate U.S. private industry demonstration of cargo and 
        crew space transportation capabilities with the goal of 
        achieving reliable, cost effective access to low-Earth orbit.

  <bullet> Create a market environment in which commercial space 
        transportation services are available to government and private 
        sector customers.

  <bullet> Procure commercial services for NASA cargo and crew 
        transportation needs.

    ESMD has established the ``Centennial Challenges'' program to 
conduct prize competitions that support the Vision for Space 
Exploration and ongoing NASA programs. Specifically, the Centennial 
Challenges program conducts prize competitions that stimulate 
innovation in basic and applied research, technology development, and 
prototype demonstration that have the potential for application to the 
performance of the space and aeronautical activities of NASA. These two 
ESMD programs, providing capabilities and technologies, will support 
U.S. competitiveness in the vital arena of space transportation.

    Question 21. Can you provide a similar response in the area of 
enhancing science, technology, engineering, and mathematics excellence 
in schools and industry?
    Answer. NASA shares the concerns of the Nation regarding the 
quality of math, science, and technology education policy and practices 
that have led to a reported decline of Americans that are 
scientifically and technologically trained to enter the NASA and the 
U.S. aerospace workforce.
    As noted previously, NASA will continue the Agency's tradition of 
investing in the Nation's education programs and supporting the 
country's educators. To that end NASA education efforts are designed 
to: improve the understanding and appreciation of science, technology, 
engineering, and mathematics disciplines, to enhance scientific and 
technological literacy, mathematical competence, problem-solving 
skills, and desire to learn; provide educators with unique teaching 
tools, compelling teaching experiences, and world-class research 
experiences; inspire students through hands-on activities to pursue 
careers in science, mathematics, engineering, and technology; and, 
build a diverse pipeline of science and engineering talent to serve in 
the coming decades and continue America's pre-eminence in space and 
aeronautics research and development.
    NASA has a number of innovative projects that use science, 
technology, engineering, and mathematics resources (content, people, 
and facilities) to inspire the next generation of explorers and 
innovators through the Vision for Space Exploration. Among the current 
Education projects are NASA Educator Astronaut, NASA Explorer Schools, 
Aerospace Education Services Program, National Space Grant Scholarship 
& Fellowship, Experimental Program to Stimulate Competitive Research, 
Graduate Student Research Program, Undergraduate Student Research 
Program, and Curriculum Improvement Partnership Awards.
    NASA's Educator Astronaut project has helped to revolutionize 
education by providing new content, advanced technological tools, and 
other educational services such as direct participation in space 
research and interaction with NASA scientists, engineers, and 
astronauts. To date, the project has trained the top tier of Educator 
Astronaut applicants, called the Network of Educator Astronaut Teachers 
(180), to perform as NASA Education advocates by engaging their schools 
and communities across the country in NASA education activities and 
informing them of NASA resources.
    NASA's Explorer Schools (NES) project establishes a three-year 
partnership between NASA and school teams, consisting of teachers and 
education administrators from diverse communities across the country. 
Focusing on underserved populations, NES joins educators, students, and 
families in sustained involvement with NASA's research, discoveries, 
and missions. The project is designed for education communities at the 
4-9 grade levels to help middle schools improve teaching and learning 
in science, technology, engineering, and math through significant 
structural techniques such as professional development, stipends, 
grants, and curricular supports based on NASA's resources. An integral 
part of the NES is availability of the NASA Digital Learning Network 
(DLN) that provides NASA people, technology, facilities, programs, and 
resources to deliver learning opportunities via videoconferences to 
teachers and students.
    The Aerospace Education Services Program serves the elementary and 
secondary education community by providing classroom demonstrations, 
faculty workshops, parent training, in-service training for teachers, 
and identification of appropriate classroom resources. NASA uses former 
teachers who are well trained and well equipped in STEM content.
    The Space Grant, a national network of colleges and universities, 
works to expand opportunities for Americans to understand and 
participate in NASA's aeronautics and space programs by supporting and 
enhancing science and engineering education, research, and public 
outreach programs.
    The Experimental Program to Stimulate Competitive Research develops 
academic research enterprises that are long term, self-sustaining, and 
nationally competitive by supporting states with modest research 
infrastructure to become more competitive in attracting research 
funding. Funding is awarded to lead academic institutions in twenty 
different states to foster a STEM relationship with industries for 
research and development opportunities.
    The Graduate Student Researchers Program cultivates research ties 
to the academic community to help meet the continuing needs of the 
Nation's aeronautics and space effort by increasing the number of 
highly trained scientists and engineers in aeronautics and space-
related disciplines, and broadens the base of students pursuing 
advanced degrees in science, mathematics, and engineering. The program 
awards fellowships for graduate study leading to masters or doctoral 
degrees in the fields of science, mathematics, and engineering related 
to NASA research and development.
    The Undergraduate Student Researchers Program attracts 
undergraduate students from the widest array of backgrounds, who are 
fully representative of America's racial, ethnic, and cultural 
diversity; and provides them with hands-on, challenging research 
experiences that stimulate continued student interest in the fields/
disciplines aligned with NASA's research and development mission.
    The Curriculum Improvement Partnership Award, a three-year 
undergraduate curriculum improvement program for minority-serving 
institutions (MSIs), including Historically Black Colleges and 
Universities, Hispanic Serving Institutions, Tribal Colleges and 
Universities, and other MSIs, emphasizes improvements that are directly 
related to the NASA mission by infusing innovative learning experiences 
in STEM into the curriculum.
    Finally, NASA's Office of Education is continually and 
collaboratively engaged with other Federal agencies, including the 
Department of Education and the National Science Foundation. 
Collaboration and coordination takes place in a number of fora. For 
example, the Assistant Administrator for Education serves as NASA's 
representative on the Subcommittee on Education and Workforce 
Development, under the President's National Science and Technology 
Council (NSTC) Committee on Science. The NASA Deputy Administrator is a 
member of the Academic Competitiveness Council (ACC) included in the 
Reconciliation Act of 2006. Chaired by Secretary Spellings, the ACC 
brings together senior administrators from each of the Federal agencies 
that sponsor math and science education programs, including NASA, to 
evaluate and coordinate these programs.

    Question 22. Are there areas where NASA could do even more in each 
of these areas if more resources were made available for it to do so?
    Answer. NASA will continue its strong commitment to promoting 
innovation, enhancing competitiveness, and inspiring the next 
generation of explorers and innovators, but must do so within the 
reality of balancing the many priorities within NASA and across the 
Federal domestic programs. Application of any additional resources must 
be considered within the context of our well-aligned programs that are 
designed to achieve the Vision for Space Exploration and on-going 
science and aeronautics research activities.
    For example, within the education portfolio there is a delicate 
balance within the pipeline of opportunities for NASA to inspire, 
engage, educate, and employ our Nation's talented youth. The primary 
goal remains attracting and maintaining a workforce that is 
representative of the Nation's diversity and includes competencies that 
NASA needs to deliver and sustain levels of high performance that the 
Agency's challenging mission requires. As we implement the Vision we 
must continually assess the strategy for deploying our resources, be 
that for attracting students to the teaching profession; providing pre- 
and in-service teacher training; providing leading-edge research 
opportunities for faculty and students that compliment NASA's research; 
developing curricula that infuses innovative learning experiences into 
the curriculum; or, supporting informal learning across government, 
industries, and professional organizations.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
